<html>
<title> - IMMIGRATION RAIDS: POSTVILLE AND BEYOND</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                IMMIGRATION RAIDS: POSTVILLE AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2008

                               __________

                           Serial No. 110-198

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-682 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 24, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     4
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     5

                               WITNESSES

The Honorable Bruce L. Braley, a Representative in Congress from 
  the State of Iowa
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
The Honorable Lynn C. Woolsey, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    19
  Prepared Statement.............................................    20
The Prepared Statement of the Honorable David Davis, a 
  Representative in Congress from the State of Tennessee
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22
Ms. Deborah Rhodes, Senior Associate Deputy Attorney General, 
  U.S. Department of Justice
  Oral Testimony.................................................    39
  Prepared Statement.............................................    42
Ms. Marcy Forman, Director of Investigations, U.S. Immigration 
  and Customs Enforcement
  Oral Testimony.................................................    54
  Prepared Statement.............................................    56
Mr. Erik Camayd-Freixas, Professor of Modern Languages, Florida 
  International University
  Oral Testimony.................................................    77
  Prepared Statement.............................................    80
Mr. David Leopold, David Wolfe Leopold and Associates, on behalf 
  of American Immigration Lawyers Association
  Oral Testimony.................................................   100
  Prepared Statement.............................................   102
Mr. Robert R. Rigg, Associate Professor of Law and Director of 
  the Criminal Defense Program, Drake University Law School
  Oral Testimony.................................................   115
  Prepared Statement.............................................   117
Mrs. Lora Costner
  Oral Testimony.................................................   123
  Prepared Statement.............................................   124

                                APPENDIX

Material Submitted for the Hearing Record........................   143


                          IMMIGRATION RAIDS: 
                          POSTVILLE AND BEYOND

                              ----------                              


                        THURSDAY, JULY 24, 2008

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:04 a.m., in 
room 1310, Longworth House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Conyers, Lofgren, Jackson Lee, 
Sanchez, Gutierrez, Ellison, Smith, King, Gallegly, and 
Lungren.
    Staff present: J. Traci Hong, Majority Counsel; Andres 
Jimenez, Professional Staff Member; and George Fishman, 
Minority Counsel.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    The Chair, by unanimous consent, may adjourn this hearing 
at any time.
    Before making my opening statement, I would like to make a 
couple of administrative comments.
    First, I think there are more people in this room than I 
have every seen before, and so we are opening up an overflow 
room for those of you who would like to sit down--and I think, 
really, we have got too many people in here in terms of fire 
safety--and that overflow room is 2226 over in the Rayburn 
Building, and the hearing will be broadcast there. So if some 
people who are standing in the back could consider moving 
there, that would be quite terrific.
    And also this hearing will be broadcast on Channel 2 of the 
House Television Network so people can also, if you are here on 
staff, will be able to watch it from your offices, and that 
might be more convenient as well.
    I will just note that this is a serious hearing based on 
accounts that we have now received about the largest ICE raid 
in the history of the United States. It seems to me one of the 
hallmarks of our great country is that we do not treat people 
like livestock. Justice is not a commodity in America; it is 
personal.
    And over 4 days in May at the Waterloo National Cattle 
Congress, each case was listed individually--the United States 
vs. a single person--and yet the information suggests that the 
people charged were rounded up, herded into a cattle arena, 
prodded down a cattle chute, coerced into guilty pleas and then 
to Federal prison. This looks and feels like a cattle auction, 
not a criminal prosecution in the United States of America.
    Our country was founded in opposition to the brutal 
practices of English tyrants. Our Western legal system is 
grounded on the firm belief that people in America have rights 
to due process. The crushing power of the states is constrained 
by the Constitution, which guarantees those rights.
    So what happened at Waterloo? Seventeen defendants to one 
lawyer, group hearing, script telling lawyers what to say in 
court, limited time for lawyers to meet defendants even without 
the language barriers the lawyers faced. Kind of like a cattle 
auction.
    The goal seems to have been that government would look 
tough on illegal immigration. But did our government follow the 
law, follow the Constitution and give meaningful due process?
    We should also be concerned by the following: The raid and 
prosecutions may have interfered with ongoing investigations 
into serious labor-law violations, including allegations of 
child labor and abuse. The workers prosecuted by the government 
may have been able to assist in that investigation or may have 
been victims of the violations themselves.
    Many of the workers apparently had no idea what a Social 
Security number or card even was. It may have been the employer 
tagging them with the number so it could hire them.
    The Federal Government spent at least $4 million to put 
people through all of this.
    What was accomplished? Well, it didn't help people like the 
person Representative Davis mentions in his testimony or the 
witness on one of our panels, who had her identity stolen. And 
why do I say that? No effort was made to punish the persons who 
truly meant to steal identities and use them to harm honest, 
hard-working Americans.
    The American system of justice is designed to ensure that 
only those who commit crimes are convicted and to identify the 
truly egregious, intentional, harmful acts by criminals and 
punish them accordingly. Those who intend to steal identities 
don't walk away with just 5 months of prison time.
    We spent more than $4 million interfering with a legitimate 
labor-violation investigation, violating the principle of 
individualized justice and locking up impoverished, uneducated 
workers trying to provide for their families without allowing 
them a chance to talk to a lawyer who has the time and skill to 
explain a complicated process to them.
    This is a magnificent country we have. In this country our 
Constitution guarantees that a poor person of any race, of any 
ethnicity, whether here legally or not, has a right to due 
process and to be represented by a lawyer when the government 
tries to prosecute and put her in jail. And that representation 
is not a formality. It is a meaningful right that includes the 
appropriate amount of time and space for the tools needed to 
conduct substantive and qualitative representation. Only 
through individualized processes can we be sure that, at the 
end of every trial, justice has indeed been served.
    I would now recognize our distinguished Ranking Member 
Steven King for his opening statement.
    Mr. King. Thank you, Madam Chair.
    And I want to thank in advance the witnesses for agreeing 
to come here and testify, especially when it is Members, 
because you have busy schedules, and we also know that you go 
on the record on both sides of the microphone in this place, 
which is quite an interesting dynamic to be on the other side.
    I wasn't present at the Agriprocessors Incorporated plant 
in Postville, on May 12, when 389 illegal immigrant workers 
were arrested and detained by ICE. Nor was I present during the 
prosecution of those workers a short while later.
    But what I have heard from parties who were present is that 
the workers were in this country illegally. They used false 
identification documents and stolen Social Security numbers to 
get their job. They were provided competent criminal defense 
attorneys and interpreters during the prosecution process and 
were given a choice of pleading guilty or going to trial.
    If this is the case, I see no reason for this hearing other 
than to try to lend credence to the arguments of those who want 
amnesty and believe that working illegally in the United States 
is a victimless crime. When an illegal immigrant gets a job in 
this country using the identification documents or Social 
Security number of another person, it is a crime, and the other 
person is the victim of that crime.
    The FTC estimates that 8.3 million Americans were victims 
of identity fraud in the year 2005, and that number is on the 
rise. We will hear today from Mrs. Lora Costner. Both she and 
her husband had their identify stolen by illegal immigrants, 
and she will tell us how it ruined their lives.
    With respect to Agriprocessors--the enforcement action--the 
allegations are that the illegal immigrant defendants somehow 
did not receive due process. But each defendant was provided a 
criminal defense attorney, and it was up to those defense 
attorneys to ensure due process. They were also provided 
interpreters.
    According to one of the defense attorneys present, the 
client did get due process. According to a July 11, 2008, New 
York Times article, attorney Sarah Smith stated, ``I think they 
understood what their options were. I tried to make it very 
clear.'' And according to the article, Mrs. Smith said she was 
convinced, after examining the prosecutor's evidence, that it 
was not in her client's best interest to go to trial. So a 
defense attorney, who was an advocate for her client, believed 
her clients made the right choice by accepting the plea 
agreements offered by the U.S. Attorney's Office.
    For far too many years, employers have gotten the message 
that they can hire illegal immigrant workers with few or no 
consequences. ICE worksite enforcement actions, like the ones 
in the Postville, put these employers and the illegal workers 
themselves on notice that, if they chose to violate the law, 
they are subject to prosecution.
    And listening to the gentlelady from California's opening 
statement about the defendants being coerced into guilty pleas, 
I think that is a presumption that I would--if we can hear that 
confirmed here today, I would be quite interested.
    But if you have an attorney--if you come into the United 
States illegally, and you go to get a job, and you are breaking 
the law, and then you are rounded up in an ICE raid, and this 
country and the taxpayers fund to the tune of $4 million your 
attorney and your interpreter, and then you plead guilty 
because it is in your best interest--and by the way, in a plea 
bargain agreement, as well--I mean, that is the equivalent of--
this is on a far-higher scale for those of you who will choose 
to misinterpret my intent here.
    But let us just say that law enforcement arrests someone on 
suspicion of murder, and they say, ``Tell us where the body is, 
we will plea agreement that down, and we won't go for the death 
penalty.'' If that defendant tells where the body is, they get 
a plea agreement for a life sentence rather than a death 
penalty. That is not in proportion, obviously, but that 
illustrates for you what a plea agreement really is. And if 
they have to hand them a piece of paper so that they can answer 
in English in America, that is not what I call confusion.
    So in group hearings, by the way, we are looking at 12 to 
20 or more million people in the United States unlawfully, and 
I don't know how we process 12 to 20 million in an individual 
fashion. If you do it in group, they consent to that, I believe 
their rights were protected. I am willing to listen to the 
arguments to the contrary here today.
    And I yield back the balance of my time.
    Ms. Lofgren. Gentleman's time has expired.
    I would now invite the Chairman of the full Judiciary 
Committee for an opening statement if he wishes to give one.
    Mr. Conyers. Thank you, Madam Chair.
    I am pleased that we are holding this hearing because it 
gives us a chance to revisit a very important subject.
    We have the Ranking Member of the full Committee here, and 
we have Steve King, the personification of what we ought to do 
in sort of a get-tough mode with immigration policy, full-bore 
enforcement.
    And we have a way of trying to figure out where we go from 
the Immigration Reform Act that we started out. It was supposed 
to be a big advancement forward, something happened in the 
Senate, and here we are.
    So for me, I am looking for a way back to how we can get to 
the middle, Steve, if there is a middle way in this.
    What is it that we can do to enforce the law--first of all, 
recreate the law, and we want to look at that. And, secondly, 
how do we enforce it? And these raids where in a way they were 
brutal, they were payback, they are gotcha and it seemed like 
there was something else going on besides being the biggest 
raid in history so far.
    And so I am looking for this way that we can begin to 
examine what we can do besides deport 12 million or more 
people. I think we can figure that out.
    But there is a lot of emotional attachment to this subject 
matter that brings us here today with this Committee.
    First of all, in a downward-spiraling economy, we have a 
lot of people looking for somebody to blame, and there is 
nobody more eligible for blame than people who aren't qualified 
or legal citizens and that factors into this. I want to try to 
separate some of that out.
    Mr. Gallegly. Would the gentleman yield?
    Mr. Conyers. Of course.
    Mr. Gallegly. Mr. Chairman, I appreciate your comments. I 
would like to say that I don't think that we should be blaming 
legal, law-abiding citizens. And when we talk about having to 
deport 12 million or 20 million or whatever the magic number 
is, you were here in 1986 when we passed the Simpson-Mazzoli 
bill, better known as Amnesty or IRCA--Immigration Reform Act--
and where we made between 4 and 5 million people that were 
illegal legal under the premise that this will never happen 
again because we have a safety valve called employer sanctions. 
The only problem is that we never enforce those employer 
sanctions.
    I contend that we could solve a tremendous number of the 
problems with illegal immigration today without one border 
patrol agent. I think all we have to do--we don't have to 
deport anyone. If we enforce the laws under IRCA and subsequent 
laws in the 1995 act, as it relates to benefits, jobs and the 
overwhelming reason why people came here to start with, if we 
deny them access to the things that they are illegally entitled 
to, I think a large number will self-deport.
    Then when we find that we have unmet domestic needs for 
certain things--the whole premise of our immigration policy is 
based on assimilation and bringing people here from countries 
all over the world to fill jobs and make America a greater and 
strong place. But we do it under the rule of not--under the 
rule of law, not under the cover of darkness.
    And I yield back.
    Mr. Conyers. Well, now that I have given you half of my 
opening statement time just----
    Mr. Gallegly. [Off mike.]
    Mr. Conyers. No, but I want payback, though, even though it 
doesn't happen often. [Laughter.]
    Now, Elton, here is--may I get an additional minute if I--
--
    Ms. Lofgren. Well, the Chairman is allocated an additional 
minute without objection.
    Mr. Conyers. Thank you.
    Well, here is the problem, Elton. It was under the 
Administration that you advocated far more forcibly for than me 
and under a 12-year of Republican leadership in the House of 
Representatives that all these complaints arise from that you 
are telling me what we should have done.
    Now I will yield you the rest of my 1 minute left.
    Mr. Gallegly. I appreciate that. During that same period of 
time, we also had 8 years as a president--and really enforcing 
the laws of the land is not the legislative branch, it is the 
executive branch.
    Ms. Lofgren. The gentleman's time has expired, and we will 
now ask the Ranking Member of the full Committee----
    Mr. Gallegly. Thank the gentleman for yielding.
    Ms. Lofgren [continuing]. If he would like to make a brief 
opening statement so that we can get to our witnesses.
    Mr. Smith. Thank you, Madam Chair.
    I always appreciate the graciousness of the full Committee 
Chairman and his yielding to Members, as he just did.
    Madam Chair, it seems to me that the more the 
Administration tries to do its job investigating companies who 
employ illegal immigrants and prosecuting employers and illegal 
immigrants who violate the laws against working in the U.S. 
illegally, the more they are criticized for enforcing the law. 
If Members of this Committee believe that illegal immigrants 
should be allowed to work, the appropriate response should be 
to repeal employer sanctions.
    Of course, Americans expect that any law enforcement 
investigation and prosecution be conducted properly. As long as 
that goal is met, the prosecutions should continue unless the 
law is changed.
    Today's hearing was prompted by allegations of a court 
interpreter, who is here to testify, that illegal immigrant 
defendants prosecuted in connection with the worksite 
enforcement action were not treated fairly. However, from the 
beginning, these detained workers, most of whom were charged 
with crimes related to identify theft, apparently were, in 
fact, treated fairly.
    Sixty-two of them were almost immediately released from 
custody on humanitarian grounds. Immigration and Customs 
Enforcement and the Department of Justice provided the illegal 
workers with a clean and safe detention environment, and they 
had criminal defense counsel appointed to represent them--and 
interpreters--all at taxpayers' expense.
    Today we will hear from DOJ and ICE, who will describe the 
procedures followed during the investigation and persecution--
prosecution of 297 of the 389 people detained by ICE officials. 
Just because someone does not agree with the prosecution or 
does not like the fact that illegal workers are detained and 
placed and deportation procedures doesn't mean that such 
prosecutions are inhumane.
    Instead of focusing on the rights of illegal immigrants who 
take jobs from American workers, we should focus on ways to 
protect the jobs of American workers. A report by the Center 
for Immigration Studies found that illegal immigrants are 
displacing Americans in the job market or depressing their 
wages significantly.
    Black workers are disproportionately displaced by illegal 
workers. The Bureau of Labor Statistics found that in June 
nearly a third of all young Black adults were unemployed and 
many others are so discouraged that they have left the labor 
force. Unfortunately, if employers can hire an illegal employee 
at less cost than a legal employee without the risk of 
prosecution, they will hire the illegal immigrant, who will 
cost them less.
    Enforcement is working. When illegal immigrants know they 
can no longer get jobs, they often leave the area, and most 
return home. After states like Arizona and Oklahoma enacted 
laws to crack down on employers who hire illegal immigrants, 
newspapers were filled with stories detailing how illegal 
immigrants were leaving the country. This is happening in 
communities across the U.S.
    And communities benefit from ICE worksite enforcement 
actions. Last year, Georgia's Crider, Inc. lost over 600 
illegal workers during an ICE worksite enforcement action, but 
the company increased wages $1.00 an hour and continues to fill 
positions with legal workers.
    And after ICE arrested nearly 1,300 of its illegal workers, 
Swift & Company, a national meat-packing business, also raised 
wages and found U.S. citizens and legal immigrants to hire from 
the surrounding areas. And they were disproportionately 
minorities.
    Madam Chair, I expect today's hearing to show that 
procedures were in place to ensure proper treatment of illegal 
workers, then maybe we can start holding hearings that 
highlight the harmful impact of illegal immigrants on American 
workers.
    And I will yield back.
    Thank you.
    Ms. Lofgren. Gentleman yields back.
    In the interest of time, other Members are invited to 
submit opening statements for the record.
    Today we will hear from three panels of witnesses to help 
us consider the important issues before us.
    The two panels following this first will focus in on the 
Postville issue and--but we have had ICE enforcement raids 
throughout the country, and Members have had an interest to 
talk about this general enforcement issue as it has affected 
their constituencies. And so we are quite honored to have four 
of our colleagues here today to offer their testimony and their 
perspectives on this phenomena in our Nation.
    First, it is my pleasure to introduce Congressman Bruce 
Braley, who represents Iowa's 1st District. Congressman Braley 
attended Iowa State University and graduated from the 
University of Iowa School of Law in 1983. He has represented 
employees challenging dangerous company safety standards and 
has fought for people who lost their jobs due to corporate 
downsizing.
    Congressman Braley serves on the House Committee on 
Transportation and Infrastructure, the Committee on Oversight 
and Government Reform and the Small Business Committee. He is 
also the chairman of the Small Business Subcommittee on 
Contracting and Technology and the vice chairman of the 
Subcommittee on Highways and Transit.
    Congressman Braley is married to Carolyn Kalb, who lives 
with her and their children--Lisa, David and Paul--in Waterloo, 
Iowa.
    So, Congressman Braley, we appreciate your being here 
today.

TESTIMONY OF THE HONORABLE BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Chairwoman Lofgren and Ranking 
Member King and Members of the Committee, for holding this 
important hearing today and for inviting me to testify.
    I am very pleased that the Subcommittee is holding this 
hearing to examine what happened in the investigation, arrest, 
detention, conviction, incarceration and deportation of 
hundreds of undocumented workers at the Agriprocessors Inc. 
meat-packing plant in Postville, Iowa.
    As the Chairwoman noted, I live in Waterloo, IA, which is 
the site of the National Cattle Congress--which we are very 
proud of--and I also happen to represent a portion of the town 
of Postville, although the plant itself is located in 
Congressman Latham's district.
    I have been pressing for accountability and looking for 
answers into what happened before and during the raid at 
Agriprocessors, which is the world's largest kosher meat 
processor, since the May 12, 2008, raid of the plant. Even 
before the raid, in fact, in November of 2007, I have been 
questioning the conditions at the Agriprocessors plant. 
Unfortunately, I have received few good answers to my inquiries 
and just last week received conflicting information from the 
Department of Labor and ICE on their coordination before the 
raid.
    The raid at Agriprocessors, in which they detained nearly 
400 workers on immigration and criminal charges, has been 
touted as the largest enforcement action of its kind in U.S. 
history. There is no doubt that workers who violate the law 
need to be held accountable. Identity theft and fraudulent use 
of Social Security information are crimes, and crimes should be 
prosecuted.
    However, while ICE has been effective in finding and 
detaining undocumented employees who may have broken the law, I 
am equally concerned that the employer, Agriprocessors, be 
fully investigated and prosecuted for any violations of the law 
on its part. The sheer number of arrests made by ICE during the 
May 12 raid raises serious questions about the company's 
knowledge of what was going on in its facility. Almost half of 
the entire workforce was detained by ICE officials, including a 
dozen minors, who are prohibited by Iowa labor law from working 
in a slaughterhouse in the first place.
    The affidavit filed by Federal officials in support of this 
raid cited numerous allegations of questionable behavior by 
company officials, including under-the-table cash payments to 
undocumented employees and physical abuse. The Des Moines 
Register has reported that Agriprocessors has ``a history of 
noncompliance with state and Federal regulations related to 
food safety, pollution and workplace safety at its Postville 
facility.''
    These allegations are serious and disturbing. I am pleased 
that the Department of Labor has confirmed that the Wage and 
Hour Division district office in Des Moines had begun an 
investigation of Agriprocessors earlier this year for possible 
violations of the Fair Labor Standards Act and that the 
department is working in cooperation with the U.S. Attorney and 
the State of Iowa to protect the rights of workers and properly 
enforce the law.
    However, I am also concerned that this ICE raid may have 
had an impact on the ability of the Department of Labor to 
conduct a thorough and comprehensive investigation of the 
workplace itself. A letter I received from ICE last week said 
that, prior to the May 12 operation at the Agriprocessors 
facility, ICE fully coordinated its activities with other 
Federal agencies, including the Department of Labor.
    This statement directly contradicts a letter I received 
from the Department of Labor on July 3, which said that, ``The 
raid occurred without the prior knowledge or participation of 
the Wage and Hour Division'' and that, ``No advance notice was 
given to WHD or any other Department of Labor agency prior to 
the raid.'' In addition, the DOL letter states that the May 12 
enforcement action ``changes the complexion of WHD's 
investigation of Agriprocessors.''
    I am very concerned that there is conflicting information 
from these Federal agencies on whether ICE communicated with 
the DOL prior to the raid, and I intend to continue pushing for 
answers about any communications between the agencies prior to 
the raid.
    While upholding immigration law is important, so is 
ensuring workplace safety, and one should not come at the 
expense of the other. I sincerely hope that the lack of 
communication between ICE and DOL did not and does not lead to 
decreased safety for workers at the plant, although the 
evidence seems to indicate that that is precisely what is 
happening in Postville.
    The situation at Agriprocessors is further evidence that 
our immigration system is broken. I believe that Congress needs 
to think boldly and act confidently for a change in order to 
fix it.
    As I learned this year on my trip to the border in Mexico, 
we need to invest in technology, infrastructure and personnel 
to secure our border. We need to debate the feasibility of an 
effective and affordable employment-verification system, and we 
need to agree on what to do with undocumented immigrants who 
are already here.
    We also need to ensure that the appropriate agencies are 
fully coordinating with each other and that employers like 
Agriprocessors, who break our immigration laws, are thoroughly 
investigated and prosecuted to the full extent of the law.
    Unfortunately, under current Administration, the 
prosecution of employers who violated immigration law has 
plummeted. In 2004, only 4 employers faced sanction for hiring 
undocumented workers out of more than 9 million employers in 
the United States, and that record has only improved slightly 
in recent years.
    The Federal Government must demonstrate a commitment to 
enforcing the law against corporations who profit by looking 
the other way when immigration, workplace safety, child labor, 
environmental and food-safety laws are being broken. Unless we 
enforce our laws equally against both employees and employers 
who break the law, we will continue to have a serious 
immigration problem here in this country.
    Thank you.
    [The prepared statement of Mr. Braley follows:]

 Prepared Statement of the Honorable Bruce L. Braley, a Representative 
                   in Congress from the State of Iowa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Congressman.
    Next, I would like to introduce our colleague Congresswoman 
Sheila Jackson Lee, who represents the 18th District of Texas.
    Congresswoman Jackson Lee chairs the Homeland Security 
Subcommittee on Transportation, Security and Infrastructure 
Protection and serves on the Judiciary and the Foreign Affairs 
Committee and, in fact, is a Member of our Subcommittee. She is 
a leader in the immigration debate and is also the author of 
H.R. 750, the ``Save America Comprehensive Immigration Act of 
2007.''
    Congresswoman Jackson Lee received her bachelor's degree 
with honors from Yale University and her Juris Doctor degree 
from the University of Virginia.
    Before her election to Congress in 1994, she served on the 
Houston City Council and was an associate municipal court 
judge.
    Congresswoman Jackson Lee is married to Dr. Elwyn C. Lee, 
and they have two children: Erica, a graduate of the University 
of North Carolina and Duke University, and Jason, a 3rd-year 
student at Harvard University.
    Welcome, Congresswoman Jackson Lee, for your statement.

TESTIMONY OF THE HONORABLE SHEILA JACKSON LEE, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Thank you very much, Madam Chairwoman and 
to the Ranking Member.
    And my son will not let me rest without saying he has 
graduated, and I want to----
    Ms. Lofgren. Oh, I was misadvised. Congratulations to you 
and your proud family.
    Ms. Jackson Lee. Only because you have to deal with young 
children.
    But let me thank you very much and thank the Chairman of 
the full Committee and the Ranking Member of the Committee as 
well.
    I do want to acknowledge, Madam Chairwoman, that the basis 
of this Committee is that we adhere to the law, and I thank you 
for your leadership on this. We recognize that this is a Nation 
of laws, but we also recognize that it is a Nation of 
immigrants as well.
    The Committee memorandum notes that we started with 15 ICE 
teams in 2005 and we now are looking to 104 in 2008. Committee 
memorandum also indicates that we had a deportation rate in 
2002 by these ICE raids of 485 and now we are up to 4,000.
    And I think what it says is that--the question is whether 
or not these are the appropriate methods that can really get us 
to the question of law enforcement and the issue of 
comprehensive immigration reform. It seems that it cannot.
    And so I raise the points regarding the issues that have 
occurred in Houston, Texas, in particular Shipley Do-Nuts, 
which is a family-owned chain that has been catapulted into a 
highly controversial debate when Federal agents raided the 
company's Houston headquarters and arrested 20 suspected 
undocumented immigrants employed at the facility.
    On Wednesday, April 17, 2008, Immigration and Customs 
Enforcement agents in a caravan of 50 vehicles, detention vans 
and an ambulance, swarmed Shipley's office and warehouse 
complex on North Main Street at 5 a.m. A government helicopter 
circled overhead as the Shipley workers were led away in 
handcuffs to face civil charges of being in the country 
illegally.
    The Houston raid took place at the same time ICE raids 
conducted--ICE agents conducted raids of chicken-processing 
plants in Texas, Arkansas, Florida, West Virginia and 
Tennessee. Apparently, the Administration believes that this is 
the method toward comprehensive immigration reform.
    I believe that these raids are the pathway to potential 
violence, the arresting of minors and pregnant women, and their 
wrong-headed and misdirected approach to go forward on the idea 
of ensuring border security and the security of all Americans.
    In essence, we are shutting down small businesses, 
restaurants, construction sites, not because we believe that 
the workers that are there are the only workers. We are very 
much supportive of the working of American people. But if you 
listen to the small businesses and construction companies and 
restaurants across America--and processing plants--this is, as 
I indicated, wrong-headed.
    Shipley Do-Nuts had its share of problems. Its own employee 
filed a discrimination lawsuit. It was a place that was well 
known. Individuals could have been arrested in a far different 
manner, but the ICE agents chose to use a cowboy-style ICE 
raid.
    After the raid in the Shipley Do-Nuts in Houston, Action 
Rags USA was raided. Approximately 70 percent of the 166 
detained workers--about 116 workers--were women, including 8 
pregnant women, in the Action Rags USA plant raid on June 25, 
2008. Many of those workers were detained by ICE, though at 
least 73 have been released for humanitarian reasons, and some 
were documented individuals.
    The vast majority of these women were caring for children 
and had families. It is shocking to imagine that, on that 
fateful day, many children returned home to empty homes and 
apartments wondering where their mothers would be. Equally 
appalling, the pregnant workers were subject to stress and 
anxiety of arrest and detention when their own health and well-
being is critical to the health and development of their baby.
    The chaos and fear of the aftermath of the raid caused 
injuries. Four women sustained injuries that required immediate 
medical attention, including one women that required an 
immediate life flight by helicopter to a nearby hospital, as 
she was so fearful of the raid and the ensuing chaos that she 
climbed on a stack of wooden pallets and fell 20 feet to the 
ground.
    The detainees in both raids were of Mexican and Central 
American decent. The raid on Action Rags USA resulted in 
detention of 138 Mexican, 12 Honduran, 8 Guatemalan and 8 
Salvadoran.
    The Shipley Do-Nuts raid resulted in the detention of men 
from Mexico, Honduras, Nicaragua and El Salvador.
    In both raids, youth were detained. The Shipley Do-Nuts 
raid resulted in detention of one youth, who was placed in the 
care of Catholic charities and allowed to attend school until 
ICE could secure deportation papers.
    Two youths were detained in the raid on Action Rags USA. 
One of the youths, a rising high school senior, worked at 
Action Rags USA as a summer job and had only been employed from 
1 week prior to the raid and was also under the Dream Act 
legislation. He is now awaiting deportation and will be 
deported before he is able to achieve his high dream of a high 
school degree.
    Assistant U.S. Attorney Doug Davis said the fact that 85 
percent of company workers of the plant were undocumented was 
suspicion to show a conspiracy fraud. U.S. Magistrate Frances 
Stacy ruled there was evidence to support Federal conspiracy 
charges against the owner and three managers, saying that they 
knew undocumented workers were hired, but it has been proven 
that the owner had been at the plant only 1 hour and 57 
minutes. Valerie Rodriguez, 34 years old, was described by 
government officials as a company resource manager; however, it 
was reported that Ms. Rodriguez was nothing more than a 
secretary.
    In conclusion, Madam Chairwoman, let me simply say that 
this gives a litany of false starts, raid-like activities that 
create the potential for violence. It does not speak to the 
issue of comprehensive immigration reform, which my legislation 
speaks to, which provides for additional detention space, 
increased border patrol agents, enhancing border patrol 
training, establish immigration, customs and agriculture 
inspector occupations, reestablish the border patrol 
antismuggling unit and establish criminal investigator 
occupations within the Department of Homeland Security, 
increase border patrol agent investigator and other types of 
aspects that can bring about real comprehensive immigration 
reform.
    This is a dangerous approach, it is a sad approach, it is 
an unworkable, and I hope that we will ask the president of the 
United States to take the bully pulpit and lead us toward 
comprehensive immigration reform.
    I thank the gentlewoman.
    [The prepared statement of Ms. Jackson Lee follows:]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    I would like to thank Chairwoman Zoe Lofgren from California and 
Ranking Member Steve King from Iowa for holding this very important 
hearing on the recent immigration raids in Houston, Texas and across 
this great nation. Chairwoman Lofgren has continued to bring relevant 
and timely hearings and continues to work for comprehensive immigration 
reform. For this she should be applauded.
    As a senior Member of the House Judiciary Committee and the former 
Ranking Member of the House Subcommittee on Immigration, it is of the 
utmost importance that we thoroughly investigate the raids that took 
place at Shipley Do-Nuts and Action Rags USA by ICE officials. Both of 
these raids occurred in my district of Houston, Texas.

                           I. SHIPLEY DO-NUTS

    Shipley Do-Nuts is a family-owned chain that has been catapulted 
into a highly controversial debate when federal agents raided the 
company's Houston headquarters and arrested 20 suspected illegal 
immigrants employed at the facility.
    On Wednesday, April 17, 2008, Immigration and Customs Enforcement 
(ICE) agents--in a caravan of 50 vehicles, detention vans and an 
ambulance--swarmed Shipley's office and warehouse complex on North Main 
Street at 5 a.m. A government helicopter circled overhead as the 
Shipley workers were led away in handcuffs to face civil charges of 
being in the country illegally.
    The Houston raid took place at the same time ICE agents conducted 
raids of chicken processing plants in East Texas, Arkansas, Florida, 
West Virginia, and Tennessee. In all, 290 workers were arrested during 
raids at Texas-based Pilgrims Pride plants on suspicion of identify 
theft, document fraud and immigration violations, the agency said.
    ICE officials have released few details of the Shipley 
investigation, saying only that it would continue. The undocumented 
workers arrested Wednesday face deportation.
    The Shipley raid centered on its 140,000-square-foot warehouse, 
processing plants and office complex. It is part of a four-block 
compound the company operates at 5200 North Main, where doughnut mix 
and other fillings are made for many of the 86 Houston-area locations.
    The site includes at least five trailers and 14 small homes. The 
neatly maintained properties sit behind cyclone and barbed-wire fencing 
used by some Shipley employees.
    The people caught in this raid were hard working people. ICE should 
make certain that minors were not caught in this raid. And, if minors 
were caught, ICE should ensure that these minors are returned safely to 
their families.
    Shipley Do-Nuts has been the subject of recent discrimination 
lawsuits. Recently, in 2006, 15 workers filed a discrimination lawsuit 
against the company, seeking damages for allegedly enduring daily 
slurs, such as ``wetback'' and ``mojado'' while working at the 
company's warehouse. Most of the allegations were filed against a 
former plant manager, Jimmy Rivera, and two supervisors. The company 
settled the lawsuit with the workers in February. The settlement terms 
are confidential.
    If Shipley Do-Nuts was hiring illegal immigrants it has a duty to 
abide by the immigration laws. If Shipley is to blame, then we must 
work to ensure that Shipley adheres to the law or faces stiff 
penalties.

                          II. ACTION RAGS USA

    Within weeks of the Shipley Do-Nuts raid, on June 25, 2008, ICE 
agents raided the Action Rags USA plant in Houston. In all, 166 of the 
192 workers at the plant were undocumented.
    Approximately 70 percent of the 166 detained workers, about 116 
workers, were women including eight pregnant women. Many of those 
workers were detained by ICE, though at least 73 have been released for 
humanitarian reasons. The vast majority of these women were caring for 
children and had families. It is shocking to imagine that on that 
fateful day, many children returned home to empty homes and apartments 
wondering when their mothers would return. Equally appalling, the 
pregnant workers were subject to the stress and anxiety of arrest and 
detention when their own health and well being is critical to the 
health and development of their baby.
    The chaos and fear in the aftermath of raids did cause injuries. 
Four women sustained injuries that required immediate medical 
attention, including one woman that required an immediate ``life 
flight'' by helicopter to a nearby hospital as she was so fearful of 
the raid and the ensuing chaos that she climbed on a stack of wooden 
pallets and fell 20 feet to the ground.
    The detainees in both raids were of Mexican and Central-American 
descent. The raid on Action Rags USA resulted in the detention of 138 
Mexican, 12 Honduran, 8 Guatemalan, and 8 El Salvadoran workers. The 
Shipley Donuts raid resulted in the detention of men from Mexico, 
Honduras, Nicaragua, and El Salvador.
    In both raids, youths were detained. The Shipley Donuts Raid 
resulted in the detention of one youth who was placed in the care of 
Catholic Charities and allowed to attend school until ICE could secure 
deportation papers. He was subsequently deported before finishing the 
school year.
    Two youths were detained in the raid on Action Rags USA. One of the 
youths, a rising senior in high school, worked at Action Rags USA as a 
summer job and had only been employed for one week prior to the Raid. 
He is now awaiting deportation and will be deported before he is able 
to achieve his dream of a high school degree. Assistant U.S. Attorney 
Doug Davis said the fact that 85 percent of company workers at the 
plant were undocumented was sufficient to show a conspiracy existed. 
U.S. Magistrate Frances Stacy ruled there was evidence to support 
federal conspiracy charges that Mabarik Kahlon, 45, owner of Action 
Rags USA, and three managers knew undocumented workers were hired and 
they had presented false work documents.
    Four government informants, three who were paid a total of $13,200 
along with immigration benefits will be a key part of the case. The 
three paid informants were illegal immigrants planted at Action Rags 
USA by ICE agents. Because the paid informants were given cash money 
and documents allowing them to legally stay and work in the country, 
there is a strong incentive for anybody to say what the agents want 
them to say.
    The ICE surveillance reports documented only one hour and 57 
minutes in which Mr. Kahlon was at the plant. Mr. Kahlon is the owner 
of several vitamin supplement companies, and may not have been actively 
managing daily operations at Action Rags USA.
    Among the persons arrested at Action Rags USA was 34 year old, 
Valerie Rodriguez, described by government officials as the company's 
resource manager. It was reported that Ms. Rodriguez was nothing more 
than a secretary.
    Both Mr. Kahlon and Ms. Rodriguez were released last week from 
custody after posting bond. The judge denied bail for Cirila Barron, 
38, one of two illegal immigrants ICE documents describe as company 
managers at the plant.
    Another undocumented worker, Mayra Herrera-Gutierrez, 32, was 
denied bail. She was arrested for allegedly being an illegal alien and 
working as a warehouse supervisor. There is evidence, however, that she 
did not have the authority to hire and fire workers.
    As members of the House Judiciary Subcommittee on Immigration, we 
exercise oversight of ICE's actions. Shipley Do-Nuts is a family-owned 
and operated business with a 72-year history in the Houston area, and 
190 stores in several states.
    I am concerned for the well-being of the employees that are being 
detained and their families. I am concerned that the detainees be 
treated fairly and are not denied counsel or their basic human and 
civil rights. Lastly, I am concerned that these raids have 
disproportionately focused upon the undocumented employees and the 
employers largely have been left unharmed from these raids. I believe 
that it is an injustice in the immigration system that the 
``crackdown'' has been directed at the ``undocumented'' workers who are 
working to support themselves and their families.
    These raids demonstrate that Congress must pass comprehensive 
immigration reform. I have long advocated for comprehensive immigration 
reform. Indeed, in December 2007, I introduced, HR 750, Save America 
Comprehensive Immigration Act of 2007. This bill would provide for 
comprehensive immigration reform.
    Importantly, the bill authorizes DHS to adjust the status of aliens 
who would otherwise be inadmissible (due to unlawful presence, document 
fraud, or other specified grounds of inadmissibility) if such aliens 
have been in the United States for at least five years and meet other 
requirements. Additionally, it authorizes the emergency deployment of 
Border Patrol agents to a requesting border state.
    The bill also directs DHS to: (1) provide for additional detention 
space for illegal aliens; (2) increase Border Patrol agents, airport 
and land border immigration inspectors, immigration enforcement 
officers, and fraud and document fraud investigators; (3) enhance 
Border Patrol training and operational facilities; (4) establish 
immigration, customs, and agriculture inspector occupations within the 
Bureau of Customs and Border Protection; (5) reestablish the Border 
Patrol anti-smuggling unit; (6) establish criminal investigator 
occupations within the Department of Homeland Security (DHS); (7) 
increase Border Patrol agent and investigator pay; (8) require foreign 
language training for appropriate DHS employees; and (9) establish the 
Fraudulent Documents Task Force.
    This bill also sets forth unfair immigration-related employment 
practices. Additionally the bill requires petitioners for nonimmigrant 
labor to describe their efforts to recruit lawful permanent residents 
or U.S. citizens.
    As these investigations move forward I will make sure that all 
issues are addressed surrounding this raid. This raid demonstrates the 
importance of immigration reform. As members of Congress, let us work 
together to resolve this matter and ensure that everyone's rights are 
protected!

    Ms. Lofgren. Thank you, Congresswoman.
    Next, I am pleased to introduce my colleague from 
California Congresswoman Lynn Woolsey.
    Congresswoman Woolsey is currently serving her eighth term 
as the representative of California's beautiful 6th District, 
which includes all of Marin and most of Sonoma County.
    As the Chairwoman of the Education and Labor's Workforce 
Protection Subcommittee, she held a hearing earlier this year 
on how immigration raids at workplaces impact children, 
families and communities. Congresswoman Woolsey is also co-
chair of the Congressional Progressive Caucus, and we are 
pleased to hear her testimony today.

TESTIMONY OF THE HONORABLE LYNN C. WOOLSEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you very much.
    Chairwoman Lofgren, Ranking Member King, Committee Members, 
thank you for the opportunity to testify at today's hearing.
    Congress has to play and does play a very important role in 
ensuring that Immigration and Customs Enforcement--ICE--raids 
are conducted humanely and consistent with protecting the human 
needs of families and children, and I commend the Subcommittee 
for this hearing and for your continued oversight.
    The manner in which ICE raids are carried out can be as 
important as when and where they take place. Unfortunately, 
ICE's practice in my district have been neither humane nor 
protective. Agents arrested parents right in front of their 
children, creating widespread panic and resulting in 50 to 60 
students leaving school for weeks at a time.
    Despite the fact that nearly two-thirds of children with 
undocumented parents are U.S. citizens, ICE has not developed a 
consistent and comprehensive policy for dealing with children. 
In fact, ICE's increasing reliance on home raids, which are not 
covered by ICE's guidelines for humanely conducting workplace 
raids, means that children are often left unprotected.
    During home raids in my district conducted in March of 
2007, some parents sent their children to school because they 
believed they weren't safe at home. One little girl was told by 
her mother to pack some essentials in her backpack and leave it 
by the door. Then, if, when the girl returned from school, she 
found that ICE had taken her mother, the little girl was 
instructed to take the backpack and to go to her aunt's home. 
Imagine--imagine what this child was thinking as she left for 
school. Imagine what she felt when she was sitting in the 
classroom. Try to imagine that little girl.
    There is more, Madam Chair.
    Earlier this year, ICE agents stopped a father in my 
district walking his daughter to school at Bahia Vista 
Elementary School in San Rafael, California. The father did not 
speak English. So ICE agents asked the young girl, who was not 
8 years old, to translate for him as ICE questioned her dad 
about his immigration status. ICE later took this girl's father 
away. Imagine how that child felt.
    On May 20, as Chairwoman Lofgren told you, as the Chair of 
the House Workforce Protection Subcommittee, I held a hearing 
on how ICE workplace raids have impacted children and local 
communities. At this hearing, a constituent of mine, Kathryn 
Gibney, principal at the San Pedro Elementary School in San 
Rafael, testified about how school officials cared for 
frightened students during last year's raid and rode the buses 
to make sure students didn't return home to empty houses.
    Two days after the recent Subcommittee hearing, ICE agents 
launched another raid in San Rafael. They say it was not 
retribution. Ms. Gibney's school was again one of the schools 
most impacted by the raid. ICE vans parked near school bus 
stops, terrifying children as they left their parents and 
boarded the school buses. That day, absentee rates at the 
schools increased dramatically. One of the schools canceled its 
open house plan for that evening out of fear for the safety of 
parents and students.
    Madam Chairwoman, Members of this wonderful Committee, 
there are no more effective and humane ways to enforce our 
immigration--are there are no effective and humane ways to 
enforce our immigration laws other than through the raids that 
terrify children and communities?
    Senator Ted Kennedy and I have each sent letters to the 
Department of Homeland Security discussing the need for a more 
comprehensive policy to address the needs of children impacted 
by ICE raids. I ask to submit these letters to the Committee.
    Ms. Lofgren. Without objection, they will be made part of 
the record.
    [See Appendix.]
    Ms. Woolsey. And I need to tell you that neither of us has 
received a response from ICE.
    We can no longer, Committee, wait to address the impacts 
these raids are having on families and children, many of whom 
are in the U.S. legally, many of whom are U.S. citizens. It is 
unacceptable that home raids for children are more likely to be 
impacted do not have a strong protection for children nor are 
they covered by the guidelines for humanely conducting ICE 
raids. Who, if not children, deserve humane treatment?
    Thank you very much.
    [The prepared statement of Ms. Woolsey follows:]

 Prepared Statement of the Honorable Lynn C. Woolsey, a Representative 
                in Congress from the State of California

    Chairwoman Lofgren, thank you for the opportunity to testify at 
today's hearing. Congress has a necessary role in making sure that 
Immigration and Customs Enforcement (ICE) raids are conducted humanely 
and consistent with protecting the needs of families and children, and 
I commend the Subcommittee for its continued oversight.
    The manner in which ICE raids are carried out can be as important 
as when and where they take place. Unfortunately, ICE's practices in my 
District have been neither humane nor protective. Agents arrested 
parents right in front of their children, creating widespread panic and 
resulting in 50 to 60 students leaving school for weeks at a time. 
Despite the fact that nearly two thirds of children with undocumented 
parents are U.S. citizens, ICE has not developed a consistent and 
comprehensive policy for dealing with children. In fact, ICE's 
increasingly reliance on home raids, which are not covered by ICE's 
guidelines for humanely conducting workplace raids, means that children 
are often left unprotected.
    During home raids conducted in March 2007, some parents sent their 
children to school because they believed they weren't safe at home. One 
little girl was told by her mother to pack some essentials in her 
backpack and leave it by the door. If she found ICE had taken her 
mother when she returned from school, the little girl was to take the 
backpack and go to her aunt's house. Imagine what this child was 
thinking as she left for school.
    Earlier this year, ICE agents stopped a father walking his daughter 
to school at Bahia Vista Elementary School in San Rafael, California. 
Her father did not speak English, and ICE agents asked the young girl, 
not more than eight years old, to translate for him ICE's questions 
about his immigration status. ICE later took this girl's father away.
    On May 20, 2008, I chaired a hearing in the House Workforce 
Protections Subcommittee on how ICE workplace raids have impacted 
children and local communities. At this hearing, a constituent of mine, 
Katherine Gibney, the Principal at the San Pedro Elementary School in 
San Rafael, testified about how school officials cared for frightened 
students during last year's raids and rode the buses to make sure 
students didn't return to empty homes.
    Two days after the Subcommittee hearing, ICE agents launched 
another raid in San Rafael. Ms. Gibney's school was, again, one of the 
schools most impacted by the raids. ICE vans parked near school bus 
stops terrified children as they left their parents and boarded their 
school buses. Absentee rates at the schools increased dramatically. One 
of the schools canceled its Open House planned for that night out of 
fear for the safety of parents and students.
    Madame Chairwoman, there are more effective and humane ways to 
enforce our immigration laws than through raids that terrify 
communities. Chairman Edward Kennedy and I have each sent letters to 
the Department of Homeland Security discussing the need for a 
comprehensive policy to address the needs of children impacted by ICE 
raids, and I ask to submit these letters for the record. Both of the 
letters are awaiting a response. We can no longer wait to address the 
impact these raids are having on families and children, many of whom 
are in the U.S. legally and many of whom are U.S. citizens. It's 
unacceptable that home raids, where children are most likely to be 
impacted, do not have strong protections for children.

    Ms. Lofgren. Thank you very much, Congresswoman.
    Finally, I would like to introduce Congressman David Davis. 
Congressman Davis represents the 1st Congressional District of 
Tennessee that includes the 12 upper east Tennessee counties.
    He serves on the House Committee on Education and Labor. He 
is the Ranking Member on the Small Business Committee's 
Subcommittee on Contracting and Technology, and he and I serve 
together on the House Homeland Security Committee.
    And we are very pleased to have you here to give us your 
testimony, Congressman Davis.

  TESTIMONY OF THE HONORABLE DAVID DAVIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Davis. Thank you, Madam Chairwoman, Ranking Member, and 
Members of the Committee.
    I appreciate the opportunity to testify before this 
Committee on the effects illegal immigration has on communities 
in Northeast Tennessee.
    Also, thank you for your interest in the story of Lora 
Costner, a constituent of the 1st Congressional District of 
Tennessee and a resident of Cocke County, who will testify here 
today.
    Illegal immigration places a heavy burden on our country 
and on our taxpayers. No more a problem limited to the counties 
along our borders, even Appalachia must face the threat to our 
economy. Families in Cocke County directly suffer from the 
effects of illegal immigration and our government's inability 
to enforce our laws. I encourage this Committee to take Ms. 
Costner's story of identify theft by an illegal immigrant as an 
indication of just one of the many damaging effects of lack of 
immigration enforcement.
    Many immigrants come to Hamblen County to work in the 
poultry-processing industry. Much like the raid in Iowa 
generated this hearing, the parent company of Hamblen County's 
plant operation in Cincinnati, Ohio, and their Chicago 
headquarters were subject to ICE raids. The illegal immigrant 
who stole Ms. Costner's identity used the information to gain 
employment at the Morristown poultry plant.
    This hearing asks how we move forward with our immigration 
policy in light of these raids and the poultry industry.
    One of the best tools the Department of Homeland Security 
has to enforce our immigration laws is the 287(g) program. This 
program allows local law enforcement agencies to partner with 
ICE on illegal immigration matters. ICE trains local law 
enforcement in immigration law, and the local agency is given 
the authority to enforce those laws.
    Metro Nashville Davidson County, Tennessee, has been 
operating under a 287(g) agreement for some time now. The 
Nashville community has seen the benefits of the local law 
partner shift through improvement in enforcement of our 
immigration laws.
    You would be hard pressed to find a community who would 
benefit more from such a partnership than Hamblen County and 
Morristown, Tennessee. According to the University of Tennessee 
study, Hamblen County has one of the fastest-growing immigrant 
populations in the Nation. Hamblen County schools, hospitals, 
roads and housing agencies are unable to keep up with the 
trend.
    The Hamblen County jail is overrun with citizens of other 
countries with no U.S. immigration status. These individuals 
are in Hamblen County illegally. If our immigration laws were 
enforced, these individuals would be removed to their country 
of origin and barred from reentry into the United States.
    Unfortunately, the Hamblen County Sheriff lacks the 
authority to enforce these laws. Hamblen County approached ICE 
to participate in the 287(g) program. Citing lack of resources 
and manpower, ICE could not agree to the partnership. It is 
imperative that this Congress expand the 287(g) program to 
allow any willing community to participate.
    I am privileged to serve on the House Committee on Homeland 
Security with oversight of the department and the Immigration 
and Customs Enforcement Agency. In 2007, the Committee took up 
legislation reauthorizing the DHS. I offered an amendment in 
the Committee expanding this program that fell for a lack of a 
majority on a 15-15 tie. The House Rules Committee, by a vote 
of 8 to 4, refused to make this same amendment and order when 
the bill moved to the House floor. I have introduced this 
bipartisan amendment as a stand-along legislation that has been 
referred to this Committee.
    Also referred to this Committee is Congressman Shuler's 
SAVE Act. This legislation would authorize increases to all 
programs related to enforcement of our immigration law. One-
hundred-and-ninety Members of Congress have signed the 
discharge petition to bring Congressman Shuler's legislation to 
the floor. I would encourage action on this bill.
    Finally, this Congress must again take up legislation 
reauthorizing the Department of Homeland Security, giving 
guidance to ICE on immigration policy and law enforcement.
    Thank you again for the opportunity to testify here today, 
and I will look forward to the testimony of Ms. Costner as 
well.
    I yield back.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of the Honorable David Davis, a Representative in 
                  Congress from the State of Tennessee

    I appreciate the opportunity to testify before this Committee on 
the effects illegal immigration has on communities in East Tennessee. I 
also thank you for your interest in the story of Lora Costner, a 
constituent of the First Congressional District of Tennessee and 
resident of Cocke County who will also testify here today.
    Illegal immigration places a heavy burden on our country and our 
taxpayers. No more a problem limited to those counties along our 
borders; even Appalachia must face this threat to our economy. Families 
in Cocke County directly suffer from the effects of illegal immigration 
and our government's inability to enforce our laws. I encourage this 
Committee to take Ms. Costner's story of identity theft by an illegal 
immigrant as a indication of just one of the many damaging effects of 
lack of immigration enforcement.
    Many immigrants come to Hamblen County to work in the poultry 
processing industry. Much like the raid in Iowa generating this 
hearing, the parent company of the Hamblen County plant's operation in 
Cincinnati, Ohio and their Chicago headquarters were subject to ICE 
raids. The illegal immigrant who stole Ms. Costner's identity used that 
information to gain employment at the Morristown poultry plant.
    This hearing asks how we move forward with our immigration policy 
in light of these raids on the poultry industry. One of the best tools 
the Department of Homeland Security has to enforce our immigration laws 
is the 287(g) program. This program allows local law enforcement 
agencies to partner with ICE on illegal immigration matters. ICE trains 
local law enforcement in immigration law and the local agency is given 
authority to enforce those laws. Metro Nashville/Davidson county 
Tennessee has been operating under a 287(g) agreement for some time 
now. The Nashville community has seen the benefits of the federal/local 
partnership through improved enforcement of our immigration laws.
    You would be hard pressed to find a community who would benefit 
more from such a partnership than Hamblen County and Morristown, 
Tennessee. According to a University of Tennessee study, Hamblen County 
has one of the fastest-growing immigrant populations in the nation, 
Hamblen County's schools, hospitals, roads, and housing agencies are 
unable to keep up with the trend. The Hamblen County jail is overrun 
with citizens of other countries with no U.S. immigration status.
    These individuals are in Hamblen County illegally. If our 
immigration laws were enforced these individuals would be removed to 
their country of origin and barred from re-entry into the United 
States. Unfortunately the Hamblen County Sherriff lacks the authority 
to enforce these laws.
    Hamblen County approached ICE to participate in the 287(g) program. 
Citing lack of resources and manpower, ICE could not agree to the 
partnership. It is imperative this Congress expand the 287(g) program 
to allow any willing community to participate.
    I am privileged to serve on the House Committee on Homeland 
Security with oversight of the Department and the Immigration and 
Customs Enforcement Agency. In 2007 the Committee took up legislation 
reauthorizing DHS. I offered an amendment in Committee expanding this 
program that failed for lack of majority on a 15-15 tie. The House 
Rules Committee by a vote of 8-4 refused to make this same amendment in 
order when the bill moved to the House floor. I have introduced the 
amendment as standalone legislation that has been referred to this 
Committee.
    Also referred to this Committee is Congressman Shuler's SAVE Act. 
This legislation would authorize increases to all programs related to 
enforcement of our immigration laws. 190 Members of Congress have 
signed the discharge petition to bring Congressman Shuler's legislation 
to the floor. I would encourage action on this bill.
    Finally, this Congress must again take up legislation reauthorizing 
the Department of Homeland Security giving guidance to ICE on 
immigration policy and law enforcement.
    Thank you again for the opportunity to testify here today and I 
look forward to the testimony of Ms. Costner.

    Ms. Lofgren. Thank you very much, Mr. Davis.
    And thanks to all four of our colleagues. We do understand 
that Members have multiple hearings and markups going on. We 
hope to ask you questions, but if you are called to another 
hearing, we understand because we have all been in that spot, 
and just let us know if that happens to you.
    We will begin our questioning at this point, and I will 
lead off.
    Congressman Braley, this is basically your hometown where 
all of this happened, and I am interested in--in the case of 
the Postville raid, it is--well, I have got the letters, I 
mean, from ICE and Department of Labor, and they just say 
diametrically different things. ICE says that the DOL knew 
about the raid, and DOL says no they didn't.
    And so it appears--and as a matter of fact we have that 
reaffirmed verbally by DOL today that they knew nothing about 
this.
    So what happens to the DOL investigation into the labor 
violations that may have been present at the Agriprocessors 
plant? It seems to me that, if we have prosecuted the 
individuals--the workers--who were there, they are in jail or 
in prison, and then they are going to be deported, how can they 
be witnesses to--on--I assume--the case that was to be brought 
against the employer?
    Are you concerned that this action has jeopardized the DOL 
investigation and possible prosecution of the labor-law 
violations that have been alleged?
    Mr. Braley. Well, yes, I am. That is one the reasons I have 
been asking for these answers.
    And just for the record, while the hearing has been 
proceeding, I just received word from my office that we have 
been informed that a fax was received from the Department of 
Labor's Office of Inspector General, which confirmed they were 
given verbal notice--the OIG of the Department of Labor--prior 
to the May 12 raid and encouraged to be present--just the OIG, 
not the Wage and Hour Division--and they were specifically 
instructed not to inform the Wage and Hour Division that the 
raid was pending.
    And the reason I am concerned is because, given the short 
amount of incarceration periods under the plea agreement, given 
the fact the deportations are scheduled to occur as soon as 
those short sentence are completed, and given the language 
barrier for many of the key witnesses to these workplace safety 
violations, it seems to me it is going to be very difficult for 
the Department of Labor investigation to get the best evidence 
possible.
    And when you look at the history of workplace safety 
violations at this company and the fact that after certain 
agreements have been entered into, there have been repeat 
violations discovered by the Iowa Department of Labor of the 
very conditions that were supposed to be mitigated, I have very 
strong concerns about the impact of the ongoing investigation. 
And when you add that to the child-labor issues, then it is a 
very serious concern.
    Ms. Lofgren. We will find out later from other witnesses 
perhaps, but we don't know how many of the employees have been 
deported so far and whether there has been an effort to 
maintain their presence in the United States as material 
witnesses to this other investigation.
    I know that you have been trying to do the best thing for 
your constituents. Have you been advised about that?
    Mr. Braley. Well, most of the information I get, quite 
frankly, comes from news reports. Senator Grassley and I both 
were aware of what was going on at the Cattle Congress before 
the raid was carried out. We were informed that there was a 
training exercise involving ICE and other Federal agencies and 
received no prior notice of what was going on.
    But one of the things we do know is that there has been a 
report that nine people have been deported under contract with 
a private plane service, and we know that there are many people 
being housed or incarcerated right now in county jails and in 
Federal detention facilities in Iowa and other Midwestern 
states. So the very nature of how the incarceration is being 
carried out makes it difficult to find witnesses in a central 
location as they would be if they were in the workplace.
    Ms. Lofgren. I will just--before turning this over to the 
Ranking Member--note that it is disturbing to hear that ICE 
notified the IG of the Department of Labor. That tells me they 
knew that there was an ongoing Department of Labor 
investigation about violations, including child labor, at this 
plant. But to tell the IG and not the Wage and Hour Division 
insured that there would not be a presence there, and it is 
almost as if ICE intended to disrupt the investigation--and 
potentially prosecution--of this company for violations of the 
law.
    You know, when we enforce the law as a government, we are 
also required to live by the law. And I wonder in this case 
whether that is really what occurred here or whether there was 
an active involvement to really cover up and prevent the 
enforcement of the labor laws on the part of the Department of 
the Homeland Security. It is a very disturbing piece of 
information.
    My time has expired.
    I would now turn to the Ranking Member for whatever 
questions he may have.
    Mr. King. Thank you, Madam Chair.
    And I thank all the witnesses.
    And, you know, Iowa's not used to being in the spotlight, 
not for natural disasters and not for immigration issues, but 
those things have emerged in the last few years. And so I would 
just turn to my colleague, who is a member, of course, of the 
Iowa delegation, and say, first off, I agree with you on the 
principle that you emphasized here that we need to enforce the 
law against employers as well. And I am curious about how we 
will get there and get that done.
    I would point out that the point was made earlier today 
that we do pass the laws here, as the Chairman of the full 
Committee said, and we review them, but in the end, it is the 
executive branch that enforces the law, and I have been in the 
business over the last 5\1/2\ years of seeking to encourage 
them to do so.
    I don't know that this hearing encourages enforcement of 
the law. I think it actually works in a counterproductive 
fashion because the tone has to be intimidating to the ICE 
workers.
    But I take this point is that one of the thing that ICE was 
concerned about, I believe, and--is that their communications 
with the Department of Labor might have provided a leak that 
could have warned the plant that there was a raid.
    And so I would suggest we have two things going on. One is 
we are concerned that this kind of information will leak out to 
perhaps local officials who would then tip off the plant or 
maybe another department of the government.
    We have another problem. The Social Security Administration 
doesn't know what the Department of Homeland Security is doing 
and neither do other departments of government, like a company 
that has divisions that don't communicate with each other.
    So I would ask you if--I mean, I have proposed a piece of 
policy, Mr. Braley, that recognizes this: That I think, when an 
employer knowingly and willfully hires illegals, that they 
should not be able to deduct the wages that they pay or the 
benefits they pay from their income tax. And I believe we can 
allow them to protect themselves and give them safe harbor if 
we let them use E-Verify.
    And then we should allow the IRS to come in, when their 
normal audit, run the Social Security numbers of those 
employees through the E-Verify. If the employer knew or should 
have known that they were illegal, they should then be denied 
deductibility of those expenses. And I would ask you if you 
agree if that would be a way that we could add to a way we 
could enforce the law?
    Mr. Braley. Well, I think we certainly need to have much 
stricter enforcement sanctions against employers who knowingly 
violate the law. And this employer is a perfect example of that 
because----
    Mr. King. Would you allow them to deduct the wages that 
they paid to illegals?
    Mr. Braley. It is one of those issues that we have to be 
looking and talking about because, in this case, many of the 
workers were denied checks that they had earned because they 
had been deported and weren't available, and that is one of the 
things the Wage and Hour Division had to get involved in.
    And in this particular case, this employer was involved in 
a labor dispute in 2000 in its Brooklyn, New York, facility and 
tried----
    Ms. Lofgren. Let our colleague answer, if you would----
    Mr. King. I just think he misunderstood my question. He is 
on the other side of my question, and I want to make sure our 
time is used in a fashion here that is prudent.
    But I yield the gentleman. I can restate the question if I 
need.
    Ms. Lofgren. The gentleman will proceed.
    Mr. Braley. I think that there are a host of different 
enforcement actions, including the one you are proposing, that 
need to be considered as a way of getting the point across to 
employers who are exploiting workers for their profit, yes.
    Mr. King. I thank you very much for that response. And it 
is a direct one, and that is the way we talk in the Midwest, 
just nice and directly.
    So in another direct fashion here, as I review your 
testimony and you reference undocumented workers, and I would 
ask you directly, those who have pled guilty and--of which, by 
the way, of those who were rounded up in that raid, 62 were 
released for humanitarian reasons so they had children to take 
care of, and so I wanted to make that point.
    But of those who have pled guilty then--do they then 
transition from undocumented workers into illegal aliens or 
criminal aliens?
    Mr. Braley. Well, once they have pled guilty to a charge 
after due process, they become identified however the law 
classifies them, yes.
    Mr. King. Which would be illegal aliens or criminal aliens 
depending on the case of the conviction?
    Mr. Braley. Well, to me a criminal is a criminal no matter 
what their naturalization status is. If you plead guilty to a 
criminal offense in this country, then you are deemed to have 
been convicted of a criminal offense.
    Mr. King. And then they are criminals?
    Mr. Braley. Yes.
    Mr. King. I thank you, Mr. Braley.
    And I turn to Mr. Davis, and I know that, coming in out of 
this from Tennessee you advocated strongly for a 287(g) 
program. You have been blunted at every effort to do that. I 
encourage you to keep trying and I--the resources--local law 
enforcement and their cooperation are in short supply. What is 
your sense when you promote 287(g)? Is there pushback?
    Mr. Davis. There is not pushback at the local level. There 
is not pushback at the state level. There is pushback at the 
Federal level, most of my colleagues, unfortunately.
    I can tell you, though, this is a bipartisan approach. When 
I introduced legislation to bring the amendment to the floor, 
the first thing I did is reached across the aisle, had one of 
my fellow Members who is a Democrat on the Homeland Security 
Committee introduce the legislation with me. So I am trying to 
not make this a partisan issue. Trying to make this an American 
issue.
    I can tell you--this is coming directly from the sheriff of 
Hamblen County and from the chief of police in the city of 
Morristown--they want some help. The odds of finding a Federal 
agent on street corners across America are very slim. The odds 
of finding a member of a sheriff's department or a police 
department in local communities are there, they are high, they 
know what is going on in their local communities, and I would 
encourage us to use our local law enforcement.
    Ms. Lofgren. The gentleman's time has expired. And we have 
been notified that we will have a series of votes sometime in 
the next half hour so we will lose this panel, no doubt, at 
that vote time. I am going to ask people to be as brief as they 
can.
    And Mr. Conyers, the Chair of the full Committee, is 
invited to ask any questions he may have of our colleagues.
    Mr. Conyers. Well, one thing is clear, that we don't have 
much cooperation between the organizations in the government, 
between Homeland Security, between the Department of Labor and 
others. And I guess that works to everybody's detriment.
    There was in 1982 a memorandum of understanding between the 
Immigration and the Wage and Hour Division that was signed to 
mandate cooperation and notification. And so that apparently 
isn't working too well, and we need to do a little bit more 
about it.
    But over and above that, there is a spirit of meanness that 
seems to underheard this massive raid that went on in the 
congressman's area, and I am trying to figure out if there are 
ways that we and Judiciary can, first of all, get more 
cooperation and understand what the process is. I mean, this 
was a fantastically expensive undertaking, and it may have 
blown the Wage and Hour issue that the Labor Department may be 
taking up if you have deported these folks out of the country.
    Is that the case? Do I understand this right? I will ask 
our distinguished witnesses here.
    Mr. Braley. Well, Mr. Chairman, that remains to be seen, 
and that is why I am continuing to push for further 
clarification from Department of Labor, from the Justice 
Department and from ICE.
    And one of the concerns that I raised, based upon the 
history of labor violations and workplace safety violations at 
this employer, is because we know that building a case against 
employers according to the Department of Justice takes time, 
and that is why they apparently have not issued any indictments 
against the owners of this company and others in key management 
positions. That is the response we are getting, that the 
investigation is billed.
    And the same thing is true in a workplace safety 
investigation. And if you remove key witnesses who may have 
information about violations, it could definitely compromise 
the outcome.
    Ms. Jackson Lee. Chairman, if I might, the question you 
asked, whether this is an effective manner of immigration 
reform of enforcement, we see that we have gotten only 4,000 of 
those deported out of the ICE raids that have occurred and now 
with 114--and they are particularly mean.
    The two individuals in Texas who were citizens were 
surrounded at their homes in the early morning. They were taken 
to a detention center. Their families were told that they could 
be bonded out. They are grounded in the community. They are not 
flight risks. They never got bonded out, and they were brought 
the next morning with cameras, with leg irons, with waist irons 
and cameras and a great display.
    This is, I believe, ineffective and pricey as it relates to 
ICE duties, and what happens is criminal undocumented aliens 
who wind up creating tragedy, are going uncaptured, and I think 
that is where our efforts should be along with comprehensive 
immigration reform.
    Mr. Conyers. Well, I am not enamored by my friend Steve 
King telling me how many people took a plea. Those of us with 
experience in the criminal justice system, you can end up 
taking a plea, when you are faced with either 6 months or you 
get the maximum, buddy, take your choice, and you have got a 
language problem, maybe, to boot, you have appointed counsel, 
interpreters--we don't know where they are. Some of the 
language problems even go beyond Hispanic. There were some 
people with Indian and Hispanic backgrounds. So I don't feel 
that that is some determination of guilt at all under those 
circumstances.
    Do you agree with that, Steve?
    Mr. King. No, I don't, Mr. Chairman.
    Mr. Conyers. I didn't think you would. [Laughter.]
    Ms. Lofgren. The Chairman's time has expired.
    We would now turn to the Ranking Member of the full 
Committee, Mr. Smith, for any questions he may have for our 
colleagues.
    Mr. Smith. Thank you, Madam Chair.
    I really have just three very brief questions that I hope 
can be answered yes or no.
    And, Congressman Davis, let me start with you and work 
across the panel.
    The first is do you think employers should check to see 
whether new employees can legally work in the U.S. or not?
    Mr. Davis. Absolutely. That is the only way we can deal 
with this is internally and on the borders.
    Mr. Smith. Okay.
    Congressman Woolsey?
    Ms. Woolsey. Well, yes. Except I think it is up to us to 
make sure that the information they gather is accurate. I mean, 
we have a system that can't even get people through Immigration 
and get two people in one family so how----
    Mr. Smith. I agree----
    Ms. Woolsey. It does no good to give false information to 
the employer.
    Mr. Smith. Okay.
    Congresswoman Jackson Lee?
    Ms. Jackson Lee. Yes, Mr. Ranking Member. But I also want 
you to know that the owners of, in particular, Rags USA, 
checked the documents that they were given, used the system 
that was in place and got no pushback on the documentation. We 
need to fix a broken system.
    Mr. Smith. Congressman Braley?
    Mr. Braley. I would agree with the remarks of my 
colleagues.
    Mr. Smith. All three?
    Mr. Braley. Yes.
    Mr. Smith. Okay.
    Next question is this: Do you think illegal immigrants--
start again with Congressman Davis. Do you think illegal 
immigrants take jobs away from American workers or depress 
their wages because of competition?
    Mr. Davis. Yes, I do.
    Mr. Smith. Congresswoman Woolsey?
    Ms. Woolsey. I don't believe they take jobs away because in 
my district, for example, they take jobs that other people will 
not do. But I think wages become depressed when we don't have 
labor laws that cover our low-paying workers.
    Mr. Smith. Okay. Thank you.
    Congresswoman?
    Ms. Jackson Lee. I think if you ask the construction 
industry and the restaurant industry and a lot of other 
industries, they are in essence being shut down because of 
their lack of work to the agricultural industry.
    I think we have a commitment--an obligation--to hire 
America first, but at the same time, I think we have a 
commitment to provide an employment stream, if you will, 
legally with comprehensive immigration reform for all those 
industries that have come to the Congress and say they are 
suffering.
    Mr. Smith. Congressman Braley?
    Mr. Braley. I think I would give a qualified yes in that, 
as a general principle, it is true, but that you also have 
differences in growth populations among states and differences 
in job opportunities. You have a state like Iowa, which Mr. 
King and I represent, there were four casts that were going to 
have a labor shortage in the future because of the baby boomers 
retiring and so we are looking at workplace needs, and that is 
why a state like Iowa historically has depended upon immigrant 
populations to meet its labor needs. We have to look at 
comprehensive reform so that we can make sure we are bringing 
the workers in we need to fill those.
    Mr. Smith. Thank you.
    Congresswoman Jackson Lee actually anticipated my next 
question, which is this--and I will start on the right again--
do you think American employers should hire American workers 
before they hire foreign workers?
    Mr. Davis. Yes, no doubt.
    Mr. Smith. Okay.
    Congresswoman Woolsey?
    Ms. Woolsey. Yes, if there is available American workers.
    Mr. Smith. I understand and I assume that they would be 
available. Yes.
    Congresswoman?
    Ms. Jackson Lee. Mr. Ranking Member, as you well know, we 
worked on this issue absolutely, and we should reach out to 
populations here in the United States and at the same time, 
however, provide the comprehensive immigration reform to 
provide the streams of labor that we need in this country.
    Mr. Smith. Thank you.
    Congressman?
    Mr. Braley. I would agree with those remarks.
    Mr. Smith. Okay.
    Thank you, Madam Chair.
    Actually, I will yield the balance of my time to the 
gentleman from California, Mr. Gallegly, because I think we are 
getting ready for a vote.
    Mr. Gallegly. Thanks very much, Mr. Chairman.
    Ms. Jackson Lee, later today we are going to hear from a 
person who is trying to get her life back together after her 
identity was stolen by an illegal immigrant. What would you say 
to our own citizens who have been rightfully prosecuted for 
identity theft and given strong prison sentences if we were to 
give amnesty to illegal immigrations for the same act?
    Ms. Jackson Lee. Well, I don't think anyone who has 
perpetrated a crime should be relieved of the responsibility. 
So I believe, in fact, with you, Mr. Gallegly, that I would 
much prefer ICE enforcement agents going after direct criminal 
action----
    Mr. Gallegly. So you believe that illegals should be 
prosecuted----
    Ms. Jackson Lee. Direct criminal actions by undocumented, 
not mistaken. On the other hand, I think they are wasting time 
by raids that generate no relief.
    I would like to have the individual who created the tragedy 
in San Francisco arrested. The individual who, unfortunately, 
killed an officer in Houston arrested. I don't think we are 
getting to that direction by these raids.
    Mr. Gallegly. One last question to you, Ms. Jackson Lee.
    You stated very appropriately--and I think articulately--
that you believe we are a Nation of laws and we should continue 
to focus on being a Nation of laws, and your concerns towards--
and I don't mean to be paraphrasing--some of the means of 
deportation has been done in an inhumane way and subjecting 
children and innocent people to harm; is that not correct? It 
is something--yes or no--it is something to that effect?
    Ms. Jackson Lee. They have been roughshod raids, yes, sir.
    Mr. Gallegly. Okay. Okay. Let me ask you this: Would a more 
humane way be--we currently have a database of over 10.5 
million people that are working in this country with an illegal 
Social Security card. Would it not be more humane to send a 
notice to the employer--by the way, the employer has the name, 
address, phone number and shoe size of the employee, as does 
the Social Security service of the employer and the employee.
    Should we not be sending a notice to the employer to either 
clarify that they have the right number or terminate that 
person immediately without an officer going out there to do it, 
if they don't, $1,000 a day fine until they do, and then at the 
same time the employer that has been terminated must do E-
Verify before he could get a job somewhere else? That being the 
case, we would probably have 90 percent of the illegal 
immigration problem solved except for those that are working 
underground. And then we could go to work and find out what the 
unmet domestic need is and find a legal way to do it.
    But would you agree that that would be a very humane way to 
do it, send letters out and enforce the law under the employer-
sanction provision of the 1986 IRCA law?
    Ms. Jackson Lee. I think most employers, Mr. Gallegly, 
would agree with you, a consistency in documentation. In fact, 
when I spoke to these owners, they said they thought they were 
following E-Verify, they though there was a process. At the 
same time, we have a pending comprehensive immigration bill, 
and I do think we need to find a way to address this question 
in that manner as well.
    Mr. Gallegly. With all due respect, I have to respectfully 
disagree that most employers do not believe that, or they would 
be using an E-Verify program that is 10 times simpler to use, 
if not 100 times simpler, than the I-9 form that takes a 21-
page booklet to fill out. It is an ``I don't know and I don't 
want to know because, if I know, I am going to lose 90 percent 
of my employees.''
    I yield back.
    Ms. Jackson Lee. Employers that I spoke to said they would 
like to use it.
    Ms. Lofgren. Just FYI, through misunderstanding, the 
gentleman was given 5 minutes by the clerk, when you yielded, 
so if you want to take the remainder of your time, you should 
do so.
    You are through. Okay.
    Mr. Gallegly. [Off mike.]
    Ms. Lofgren. Okay. Very good.
    I will turn now to our colleague, Mr. Gutierrez.
    Mr. Gutierrez. First of all, I want to thank the gentlelady 
Chairwoman for conducting this hearing. As she knows, we have 
been working closely together. We will be visiting Postville 
this Saturday with other members of the Hispanic Congressional 
Caucus because we think it is important to go and examine all 
of the different aspects of this raid, including the human 
tragedy, which has befallen Postville.
    So I would like to thank everyone for their testimony and 
all of my colleagues for coming this morning.
    And I would like to say that, as we have this debate, for 
those of you who aren't on the Judiciary Committee, you can see 
part of the debate that we have here. I find it interesting 
that my colleague Mr. Braley was asked whether or not there 
should be an IRS sanction against an employer who has wages. It 
is interesting when the other side says--one side's ``Criminal. 
Send them to jail,'' and other side, ``Let us do an accounting 
procedure. An IRS thing. Don't let them deduct it from the 
taxes.''
    Other people get ripped asunder from their children, from 
their spouses. The employer, give them an IRS thing that they 
can't make a deduction. That is pretty simple, but it doesn't 
surprise me because it is very clear to me that the 
undocumented workers don't have the kind of power and 
influence. They obviously don't have political action 
committee. They don't make campaign contributions. They are not 
in a position of power, as many great Agriprocessors are in a 
position of power, to influence the debate that we have here in 
Congress. So it really doesn't surprise me.
    But I think that we have to have a real discussion.
    Mr. Braley, do you know anything about the cost of this? 
Have you looked into the cost of this raid at Postville?
    Mr. Braley. Absolutely. One of the biggest issues in 
immigration reform is what it is going to cost to carry out the 
planned deportation that was under consideration of anyone in 
this country illegally.
    And because this Postville raid has been represented as the 
largest single-site immigration raid in U.S. history, I have 
requested from all related Federal agencies to provide me with 
a complete accounting of the cost of the investigation, the 
apprehension, the detention, the prosecution, and the 
incarceration associated with this one single raid of 400 
employees in the workplace. I have received nothing in response 
to that.
    But I have also asked for similar information about the 
Swift raids that were carried out in Marshalltown, Iowa, just a 
year and a half ago. I think it will give us all some insight 
into what we are talking about when we are looking at the 
problem that everyone has been talking about on the panel.
    Mr. Gutierrez. There have been estimates given of upwards 
of $40 billion to begin this process, not to totally complete 
the process but to begin the process.
    But if the congressman were ever to receive that 
information and--I am sure the Members of this Committee would 
be very, very appreciative to him for getting us that 
information because I think it goes kind of to the crux of the 
matter here.
    We have--Homeland Security and I--and I know that the 
Chairwoman sat across the street from Mr. Chertoff, and he 
negotiated with us because he said to us, ``Our immigration 
system is broken.'' That is what he said to me. That is what he 
said to Members of Congress, as he, the secretary of Homeland 
Security came down here to negotiate with us a comprehensive 
immigration reform. He said it is broken; it is bad.
    His boss, the president of the United States, said publicly 
the system is broken and people are being denied basic human 
rights, they are being exploited, we need to bring them out of 
the shadows, we need to bring them into the light of day. This 
is the president of the United States, who, through his 
ambassador, Secretary Chertoff, came to me and other Members of 
this Committee and Members of Congress and spent nearly 6 
months negotiating--or attempting to negotiate--a 
comprehensive----
    So what I find so astonishing about this is they say one 
thing and then they do the other. They take most of their 
capacity of Homeland Security, which I thought was to protect 
us against terrorists, smugglers, drug dealers, people who are 
going to do harm to me, my family and my community, and you 
know what they do? They hoodwink us. Because now, as the 
minority so clearly stated as they asked you ``Are they 
criminals?'' Yeah, technically they are criminals now because 
here is the plea agreement--I want to follow up with the 
Chairman--here is the plea agreement. This is what they had to 
plead to because of criminals.
    They said, ``If you plead guilty to the charge of knowingly 
using a false Social Security number, the government will 
withdraw the heavier charge of aggravated identity theft, and 
you will serve 5 months in jail, be deported without a hearing, 
and placed on a supervised release for 3 years.'' Okay.
    But what if you don't? ``If you plead not guilty, you could 
wait 6 to 8 months''--that is 3 months more than we are 
offering you--``without right to bail''--because you are 
immigration detained. ``If you win at trial, you will still be 
deported--waiting longer in jail than if you plead guilty, and 
you would also risk receiving at trial the 2-year minimum 
sentence.''
    I mean, this is what this is really about. What our 
government did in Postville to people who were working is that 
they charged them with aggravated identity theft, which means 
they must have knowingly, with premeditation taken that 
identity to do what? Commit a serious crime.
    Ms. Lofgren. The----
    Mr. Gutierrez. What crime did they commit? They applied for 
a job. That, the last time I checked, is not an aggravated 
felony.
    And so I think--and I am--I think that that is really the 
crux of the matter here is are we safer today
    Ms. Lofgren. The----
    Mr. Gutierrez [continuing]. Because they locked up 300 
people----
    Ms. Lofgren. The gentleman's time----
    Mr. Gutierrez [continuing]. In Postville? I think not. I 
don't feel safer. As a matter of fact----
    Ms. Lofgren. The gentleman's time----
    Mr. Gutierrez [continuing]. I feel ashamed of the Nation.
    Ms. Lofgren. The gentleman's time has expired, and we have 
just gotten, I think, our--is it the 10-minute notice? All 
right.
    Then we will take 5 minutes for Mr. Lungren, and I think we 
probably will not be able to get to our remaining two Members, 
but we will return after the vote.
    Mr. Lungren?
    Mr. Lungren. Thank you very much, Madam Chair.
    This is a most interesting hearing. Having been here in 
1986 as the Ranking Republican on immigration and having 
obtained the Republican votes to have the largest single 
legalization in the history of this Nation, I also recall we 
coupled it with, for the first time, employer sanctions, of 
which I was one of the authors.
    And the complaint has been since that time that neither 
Republican nor Democratic administration had enforced it nor 
did they do anything about going to worksites to check on it. 
And so now this Administration, finally, in the last couple 
years of their Administration, is beginning to do that, and it 
seems to me the tenor of many of the comments is that they 
should not have done that.
    Mr. Braley, it has been stated--or you said that you have 
worked on the problem of corporate downsizing resulting in loss 
of jobs for employees----
    Mr. Braley. Yes.
    Mr. Lungren [continuing]. For which I congratulate you.
    One of the things, it seems to me, it is important for us 
to do--and I ask if you would agree--is to deal with the issue 
of illegal immigration because in some cases it results in the 
loss of jobs to Americans. Do you agree with that?
    Mr. Braley. In some cases I believe it does.
    Mr. Lungren. And, Ms. Jackson Lee, one of the things I was 
surprised at hearing you say is that in the construction--I 
believe that you said it--or maybe Ms. Woolsey said--in the 
construction trade we have the need for foreign workers. When 
we passed the bill in 1986, the presence of illegal immigrants 
in the construction trade was virtually nil. And now it is more 
than that, some would say substantial.
    And at that time I expressed a concern about the high rate 
of unemployment with African-American males age 17 to 35. And 
it seemed to me that we as a country could not use as an excuse 
that we couldn't find Americans, particularly African-American 
males age 17 to--to 35, to work in the construction industry, 
and yet we have a worse situation now. It is not like 
agriculture, where it is distant from where people live.
    And do you disbelieve that there is any negative impact on 
the African-American male community for the presence of illegal 
immigrants in the workforce in construction around our country?
    Ms. Jackson Lee. Let me clarify my point. I did not say 
that they were needed, what I said was those industries are 
being shut down because of the census in the population in 
those industries, including restaurants and the construction 
industry.
    I will use as my reference your Ranking Member Mr. Smith. 
We have been leading on the issue in years past on ensuring the 
reach to the African-American community on a number of issues, 
including technology. But as we speak, in the city of Houston, 
I am leading on an effort to hire African-American young men on 
construction sites. Of course, I am an equal-opportunity 
person, who believes that all people should have the 
opportunity to work, but we are doing it to reach out to them.
    My point is is that these industries, as my good friend Mr. 
Braley said, are suffering from demographics and census, and, 
therefore, their work is being stopped. We need to find a 
comprehensive reform system, Mr. Lungren, so that we can hire 
Americans first, we can outreach to American workers and at the 
same time we can provide a pathway to citizenship.
    Mr. Lungren. Okay. Do I understand it correctly that you 
object to the raids, per se, or you object to raids that are in 
the spirit of meanness, that are cowboy style, that are 
roughshod raids, that are dangerous, unworkable and sad?
    Ms. Jackson Lee. First of all, let me say that I have a 
great deal of respect for the enforcement officers across 
America. They are working very hard. They have my support.
    But, yes, I believe that we get little value out of these 
raids. I think we get more drama. We don't get comprehensive 
immigration reform, we don't get the illegal, violent----
    Mr. Lungren. Well, I am not suggesting what do you get.
    Ms. Jackson Lee [continuing]. Off of the street and----
    Mr. Lungren. I am not suggesting----
    Ms. Jackson Lee [continuing]. An effective approach.
    Mr. Lungren. I am not suggesting you get comprehensive 
immigration reform from raids, but the raids are aimed at going 
after illegal immigrants who have jobs to which they are not 
entitled or are using false identification, which then impacts 
other people in this country. And wouldn't you--well, let me 
ask you this: Would you suggest we stop doing the raids?
    Ms. Jackson Lee. Well, let me say this: In speaking to 
employers who have had experience of today and then 5 years 
out, ICE agents used to come to the site--you can't move a big 
factory--they used to go through the individuals and be able to 
both enforce against the employer----
    Ms. Lofgren. The gentleman's time has expired.
    Ms. Jackson Lee [continuing]. Were illegal. All I would say 
is that it is an ineffective approach of doing what we want to 
do.
    Ms. Lofgren. The gentleman's time has expired.
    We will be in recess for this set of votes.
    Mr. Braley, do you have something you need to----
    Mr. Braley. Before the record is closed, I do have a copy 
of the fax that I mentioned earlier, and I would just offer----
    Ms. Lofgren. Without objection, that will be made part of 
the record.
    [The material referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Lofgren. We have four votes so we will not be back 
probably before 1 o'clock. We will begin with our second panel 
at 1 o'clock. I think there is a cafeteria in the basement of 
this building if someone wants to get a bite or a cup of 
coffee.
    [Recess.]
    Ms. Lofgren. The Subcommittee will be coming to order in a 
minute.
    As we reassemble here, I did want to mention something I 
neglected to say this morning, which is how appreciative we are 
to the House Administration Committee and their staff. The room 
that we ordinarily use is taken for another hearing in the 
Judiciary Committee, and the House Administration Committee was 
kind enough to make this hearing room available to us, and they 
have really gone the extra mile with our Judiciary staff to 
accommodate us, and we are very appreciative of that.
    And I am on the House Administration Committee, so this is 
not a new room to me, but it is an ornate room, and luckily we 
don't have all the standers here for our second panel, who I 
would like to introduce now.
    I am pleased to welcome two witnesses. The first is Senior 
Associate Deputy Attorney General Deborah Rhodes. Ms. Rhodes 
assists the deputy attorney general on a variety of criminal 
and other issues. She is also the United States attorney for 
the Southern District of Alabama, where she oversees all 
Federal criminal and civil litigation in an office of 
approximately 50 professional staff.
    Ms. Rhodes was formerly counselor to the assistant attorney 
general for the Criminal Division of the United States 
Department of Justice. She also supervised the Office of Policy 
and Legislation and was the department's liaison to the 
American Bar Association Criminal Justice section.
    She graduated with honors from Rutgers Law School in 
Camden, New Jersey, where she was editor-in-chief of the 
Rutgers Law Journal, and she graduated with high honors from 
Wheaton College Illinois, and I found out this morning, when we 
said hello, that she is also a--originally a fellow 
Californian.
    So we welcome you today.
    I am also pleased to introduce Marcy Forman. Ms. Forman is 
director of the Office of Investigations for the U.S. 
Immigration and Customs Service, otherwise known as ICE. As 
director, Ms. Forman oversees the largest investigative arm of 
the Department of Homeland Security with more than 7,000 
employees and 178 other field offices throughout the United 
States.
    Ms. Forman is responsible for the policy, planning, 
management and operations conducted under five major 
investigative program divisions within the Office of 
Investigations.
    Ms. Forman holds a Masters of Science degree in management 
from National-Louis University, a Bachelor of Science degree 
from American University and has completed the Senior Executive 
Fellowship Program at Harvard University.
    She is a 2007 recipient of the Secretary of Homeland 
Security Silver Medal for her leadership and dedication in 
leading ICE's enforcement efforts.
    Your full written statements will be made part of the 
record. We ask that you summarize your statement in 5 minutes.
    And this morning--it is very difficult to keep one's 
colleagues within 5 minutes, but we are going to ask the 
witnesses, as much as possible, to stay within the 5 minutes' 
time because we have another panel after you.
    And the little machine on the table, when it turns orange, 
that means you have got 1 minute left, and when it turns red, 
it means--and it always comes a surprise--your 5 minutes are up 
so we would ask that you please conclude at that point.
    And we will begin, Ms. Rhodes, with your testimony.

 TESTIMONY OF DEBORAH RHODES, SENIOR ASSOCIATE DEPUTY ATTORNEY 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Ms. Rhodes. Thank you.
    Good afternoon, Chairwoman Lofgren, Ranking Member King and 
Members of the Subcommittee. I am pleased to be here today to 
discuss the Justice Department's role at Agriprocessors in 
Iowa.
    Worksite enforcement is an important part of our 
immigration strategy, and I can assure you that the department 
and our U.S. attorneys in the field are fully committed to 
ensuring that we pursue it in a manner that protects every 
defendant's constitutional rights.
    The integrity of a nation's borders and its immigration 
laws are fundamental to any nation's security. For this reason, 
the attorney general has identified immigration enforcement as 
one of the department's priorities.
    Immigration policy is comprehensive. We enforce many 
statutes in a variety of contexts, including the borders, 
interior space and worksites. In my written comments, I have 
mentioned recent cases against violent organizations, smuggling 
and trafficking humans, employers and corporations who 
knowingly hire illegal workers and those who provide false 
identity documents to others, like the charges that are 
currently pending against two supervisors at Agriprocessors, 
where the investigation is ongoing.
    We also prosecute those who use false immigration or Social 
Security documents, identities that are often stolen from real 
people to circumvent immigration laws. In fact, these 
prosecutions often help investigators to work up the chain and 
obtain evidence from the witnesses who can testify directly 
against the document vendors, employers and corporations.
    Our efforts have been successful. During the first 8 months 
of this fiscal year, immigration prosecutions along the 
Southwest border increased by 19 percent. At the same time, 
apprehensions along the Southwest border decreased by 21 
percent. This is a remarkable change in both directions in a 
short period of time. And apprehensions aren't down in just 
isolated areas. They are down in each one of the Southwest 
border districts.
    We believe that this is further evidence that our success 
is due to a comprehensive immigration enforcement strategy, 
which builds upon itself and incorporates each of the efforts 
described above.
    The U.S. Attorney's Office and ICE work closely together to 
ensure that worksite enforcement actions are conducted in a 
manner that carefully safeguards constitutional rights and 
treats each person fairly and with respect. This was also true 
in Iowa, where extraordinary precautions were taken. My written 
statement describes those efforts in detail, but I will mention 
a few key points here.
    Every defendant was appointed experienced and capable 
criminal defense counsel to advise them concerning their case. 
Defense counsel, assisted by a court-certified interpreter, 
typically had the opportunity to meet with the defendant both 
before the first court appearance and immediately afterwards. 
This is earlier than happens in the ordinary case since counsel 
is usually not appointed until the first court appearance.
    Consulate officers from the defendants' countries were also 
present to advise their citizens.
    Defense counsel could, of course, continue to meet 
defendants after they were transferred to other facilities.
    Defendants who were charged with the same offense were 
assigned to the same counsel and housed together to the 
greatest extent possible in order to facilitate meetings with 
defense counsel. Defense counsel were free to meet with their 
clients as they saw best.
    Defendants represented by immigration counsel also had the 
benefit of their advice prior to any plea. The immigration 
counsel consulted with the criminal defense counsel, and 
defense counsel, in fact, raised immigration concerns in 
several cases based upon specific facts.
    Defense was provided with all of the necessary and 
appropriate discovery material at the earliest time. In most 
cases this was prior to the first court appearance. Again, this 
is earlier than the normal procedures.
    The discovery package included the charges, a copy of the 
evidence supporting the charges and other relevant materials. 
The package also included a proposed written plea agreement and 
the relevant court documents for entering that plea. The plea 
and court documents were translated into Spanish.
    All of the files were based upon the evidence, the law and 
the sound discretion of career prosecutors in the U.S 
Attorney's Office. Because the defendants, most of them, had 
stolen real identities, they were charged with aggravated 
identity theft.
    The plea offer gave them the opportunity to plead only to 
the lesser charge. In exchange, they agreed to stipulate to the 
removal, which ordinarily follows a felony conviction, and 
exceptions were made in this--on case-by-case basis based upon 
individualized facts. They also agreed to cooperate with the 
government, which was a key part of the agreement.
    The defendants pled guilty before a Federal judge on the 
record in open court with the public present and with the 
advice and consent of counsel. They went through a long plea 
policy, the same one that is used in ordinary cases, where each 
defendant was questioned at length, as was defense counsel. 
They admitted that they understood everything about the 
charges, penalties, plea agreements and sentence, in addition 
to many other things detailed in my written statement.
    The court asked counsel if there was any reason the plea 
should not be accepted, and no one objected. Defense counsel 
and the court both had an obligation to object if the plea was 
unsound.
    No constitutional corners were cut. While the scope of the 
criminal activity in this case presented unusual challenges, 
the defendants' constitutional rights were carefully protected 
and exercised throughout.
    Ms. Lofgren. Ms. Rhodes, your time has expired. If you 
could wrap up, that would be helpful.
    Ms. Rhodes. There is no reason to conclude that either the 
Federal judges or the defense counsel, who had an independent 
role in these proceedings, abdicated their role, much less than 
both of them did.
    [The prepared statement of Ms. Rhodes follows:]
                Prepared Statement of Deborah J. Rhodes
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Ms. Forman, we would welcome your 5 minutes of testimony.

  TESTIMONY OF MARCY FORMAN, DIRECTOR OF INVESTIGATIONS, U.S. 
              IMMIGRATION AND CUSTOMS ENFORCEMENT

    Ms. Forman. Good afternoon, Chairwoman Lofgren, Ranking 
Member King and distinguished Members of the Subcommittee. It 
is my pleasure to appear before you today to discuss ICE's law 
enforcement operation, in particular our worksite enforcement 
operation.
    ICE is first and foremost a Federal law enforcement agency 
with the mandate of protecting national security and public 
safety by enforcing the Nation's immigration and customs laws. 
Our agents and officers perform the mission lawfully, 
professionally and compassionately. We take extraordinary steps 
to identify, document and appropriately address humanitarian 
concerns of all those we encounter during law enforcement 
operations and, in particular, during our worksite enforcement 
operations.
    While I am here today to specifically address many of the 
steps that ICE agents take when planning a large enforcement 
operation, it is important to note that the enforcement 
operations are just a small part of the overall investigation. 
ICE worksite enforcement investigations target employers who 
adopt a business model of employing and exploiting undocumented 
workers. Our investigations identify employers who hire large 
numbers of undocumented aliens, often representing a 
substantial percentage of the employers' workforce.
    Our responsibility is to enforce the immigration laws, and 
that means arresting undocumented aliens, the employers, the 
document vendors, and any other individuals revealed by our 
investigation who have engaged in criminal activity. ICE has 
worked with Members of Congress and their staffs to develop 
worksite enforcement guidelines. The office is used when 
developing their operational plan. These guidelines were 
developed to ensure that parents who have been arrested and who 
have unattended minors or family members with disabilities or 
health concerns are identified at the earliest point possible.
    Within the law enforcement community, the consideration ICE 
gives to identifying and resolving personal family issues is 
unparalleled and unique. For example, during a large worksite 
enforcement operation, ICE coordinates with the Division of 
Immigration Health Services--DIHS--to provide a sufficient 
number of health-care providers to assess the medical and 
humanitarian needs of arrestees. DIHS personnel are given 
prompt access to all arrestees under safe and humane conditions 
on the day of the action.
    When appropriate, ICE coordinates with state and local 
social-service agencies to assist with humanitarian screening. 
Operational security concerns sometimes dictate that this 
coordination cannot occur in advance of an operation. Even 
then, however, ICE will actively contact the local social-
service agencies and local nongovernmental organizations to 
advise them of the operation once it was underway to request 
their assistance in identifying and sharing information on any 
humanitarian issues that come to their attention. ICE evaluates 
these issues against other standard considerations, and 
detention decisions, such as the arrestee's criminal record, 
immigration history and other relevant factors.
    During our May 12 operation at Agriprocessors in Postville, 
Iowa, ICE agents executed criminal and civil search warrants at 
the company, resulting in the seizure of boxes of evidence and 
the arrest of 389 undocumented alien workers.
    Extraordinary care was taken to determine if any of the 
arrestees were sole caregivers or raised other humanitarian 
concerns. This process involved the direct questioning of all 
arrestees on the day of the enforcement operation by ICE 
personnel, as well as interviews with DIHS representatives. 
Detainees were questioned no less than three times about 
humanitarian issues, such as child custody or serious medical 
concerns. ICE arranged to have DIHS professionals at the arrest 
site to immediately determine the need and status of any 
children affected by the operation.
    Through this comprehensive effort, 62 of those arrested 
were placed into removal proceedings and then released for 
humanitarian purposes while their removal proceedings 
continued. Most were released from the arrest site in the 
course of the operation.
    Worksite enforcement operations are not poorly planned, 
haphazard incidents. They are professional law enforcement 
operations conducted by a professional law enforcement agency, 
whose primary mission is the enforcement of the laws of the 
United States and the protection of the American people.
    While planning for the operation in Postville, I spent 
several months coordinating the investigation and operation 
with our Federal partners, such as the United States Attorney's 
Office, the U.S. Marshal Service, the U.S. Department of Labor 
Office of the Inspector General, U.S. Postal Inspection Service 
and others.
    ICE will continue to faithfully enforce the Nation's 
immigration laws using all the tools and assets at our 
disposal. By utilizing all our authorities to pursue aggressive 
enforcement and the training offered with the ICE Mutual 
Agreement between Government and Employers--or IMAGE--program, 
ICE is establishing a culture of immigration compliance in 
America and reducing the magnet of illegal employment.
    On behalf of the men and women of ICE, who serve this 
Nation by enforcing the Nation's immigration and customs laws, 
I would like to thank you for your continued support. These men 
and women have a difficult and oftentimes controversial job to 
do in often dangerous circumstances, but they strive always to 
do their essential work as consummate professionals.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions.
    [The prepared statement of Ms. Forman follows:]

                 Prepared Statement of Marcy M. Forman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you for that testimony.
    Now we will begin our questions.
    Would you like to proceed?
    Mr. King. Thank you, Madam Chair.
    I want to thank the witnesses for your testimony, and I 
think perhaps where I would start with this would be--if I 
direct my first question to Ms. Rhodes--with regard to what the 
rights might be.
    Is a judge--when a judge is presented with a plea 
agreement, is a judge free to reject the plea agreement if he 
believes due process has not been followed?
    Ms. Rhodes. Yes, they are. In fact, judges are required to 
do so if they find that the defendant is not competent, doesn't 
understand the charges, the penalties, understand the terms of 
the plea agreement. The judge specifically asks the defendant 
if he is satisfied with the representation of counsel, if he 
understands his constitutional rights, if he wants to waive 
them, if he wants to plead guilty. The defendant is explicitly 
asked under oath whether or not the factual basis supporting 
the guilty plea is true and correct. The defendant is asked 
whether he is under any coercion or whether the plea is 
voluntarily.
    That is just part of the list. There is a lengthy colloquy, 
and the judges, in my experience--I am a career prosecutor. 
Judges, in my experience, take their roles very seriously, as 
do defense counsel. It is an adversary system. Defendants 
represent their clients zealously. And defendants are also 
asked questions all through the colloquy--defense counsel--
excuse me--are also asked questions all through the colloquy to 
ensure that they also believe that the plea is appropriate.
    Mr. King. And if I could follow up on that a little bit and 
ask how has that colloquy been compiled? Is it a history of 
case law that is given more and more questions to make sure 
that the alleged criminal has been--have received their 
justice, or is it some scholar that sat back and wrote up the 
colloquy?
    Ms. Rhodes. The requirements are set forth in Rule 11 of 
the Criminal Rules of Procedure, which govern what must be 
covered in order to have a valid guilty plea.
    In addition, it is my experience that most judges have a 
form or a script on their desk, which they use as a checklist, 
and they go through all of the questions, they are very 
detailed, and in that way they make sure that they don't miss a 
single one. Sometimes it is also the case that judges give that 
script to counsel so that both the government counsel and 
defendant--the defense counsel can follow along the script and 
ensure that each and every question is asked and that 
satisfactory answers are given----
    Mr. King. Well, then would highly intelligent and very 
skilled immigration lawyers, like the Chair of this Committee, 
be looking for those omissions?
    Ms. Rhodes. I can't speak for the Chair of this Committee, 
but I am sure that lawyers would be looking for omissions.
    Mr. King. And are you aware that they have discovered 
omissions in that colloquy?
    Ms. Rhodes. I am not aware of that.
    Mr. King. And I don't know that this Committee is going to 
hear any testimony that would allege such a thing.
    But there has been an allegation made in the--by the 
previous--I will say implications--in the previous series of 
witnesses about the Department of Labor not being informed of 
the ICE raids, and I would just ask if you are comfortable 
speaking to that issue?
    Ms. Rhodes. I can speak to it initially, and then I would 
suggest that ICE is in a position to address that.
    But my understanding is that ICE did coordinate--and the 
U.S. Attorney's Office always coordinates with the 
investigating agencies as well--but they did coordinate with 
the Department of Labor, both through OIG, who was present at 
the site, and through both state and Federal labor departments 
that were located in Iowa.
    And I will give----
    Mr. King. I will be happy to hear from Ms----
    I am going to come back to you on that answer to that 
question, Ms. Forman, because I have just one more follow up--
--
    Ms. Rhodes. Okay.
    Mr. King [continuing]. For Ms. Rhodes.
    And that is do you have numbers that can give us--this 
Committee--some sense of how many victims of identity theft 
were associated with the workers arrested at Agriprocessors?
    Ms. Rhodes. Yes, I do. There were--of those who were 
criminally prosecuted to this point, there is approximately 
306. The vast majority of those--hundreds--had the identities 
of real people. So there were hundreds and hundreds of real 
victims in this case.
    The investigation actually showed about twice as many as 
that, but not all of those people were apprehended. But 
approximately--well, more than 70 percent of the workers who 
were both illegal and had Social Security numbers that didn't 
match. There were hundreds that real people, and there were 
hundreds of victims.
    Mr. King. And, quickly, why are not company officials--
senior company officials--charged immediately?
    Ms. Rhodes. The investigation is ongoing. I can assure you 
it is being pursued. Two supervisors were indicted last week 
and will continue.
    Mr. King. Thank you.
    And I realize, Madam Chair I am out of time. I wonder if I 
might----
    Ms. Lofgren. We may have a second--we may have a second 
round.
    Mr. King. Just for the opportunity to allow to Ms. Forman 
to respond to the question?
    Ms. Lofgren. Oh, all right.
    Mr. King. The lingering question?
    Ms. Lofgren. All right.
    Mr. King. I thank you.
    And if I need to restate that, was the Department of Labor 
informed?
    Ms. Forman. Yes, they were in April of 2008.
    Mr. King. Thank you very much.
    Thank you, Madam Chair.
    I yield back.
    Ms. Lofgren. Gentleman's time has expired.
    I would note that the Committee asked the U.S. attorney in 
Iowa Mr. Dummermuth to attend this hearing, and the Department 
of Justice sent you instead, and it is nice to see you here. 
But were you at--did you participate in these trials?
    Ms. Rhodes. No, I didn't.
    Ms. Lofgren. You weren't there?
    Ms. Rhodes. No. But I have spent hours on the phone with--
--
    Ms. Lofgren. No. I just have a simple question. You weren't 
there----
    Ms. Rhodes. No, I wasn't.
    Ms. Lofgren [continuing]. And I don't blame you, but I 
think it is disappointing that the department wouldn't send the 
U.S. attorney who was there, who we asked to attend, and I will 
just note that for the record.
    I would like--and it may be that you don't know this 
information. If so, I would like you to get it.
    But I would like to know what information was provided by 
the Department of Justice, Department of Labor, Department of 
Homeland Security--any or all of them--to the Federal court in 
Iowa. This was planned for a long time. When was the connection 
made with the court, and what measures were taken to ensure 
that the court's view of the cases would not be affected and 
that judicial neutrality would not be compromised?
    Ms. Rhodes. My understanding--primarily for logistical 
reasons. That is not unusual. If there is going to be an 
enforcement operation that is going to bring a large number of 
cases to the court, it is not uncommon to give the court a 
head's up on that.
    Ms. Lofgren. So Judge Reade would have been contacted in 
advance? I am not making a value judgment, I am just trying to 
find out what happened.
    Ms. Rhodes. That is correct.
    Ms. Lofgren. Now, we were--there have been accounts--and I 
don't know if they are accurate--that the U.S. District Courts 
for the Northern District of Iowa--Judge Reade--personally 
called defense lawyers asking them for favors and warning them 
not to tell anyone and then inviting them to attend a meeting 
in Cedar Rapids with other defense lawyers to take on the 
representation. Did anyone at DOJ ask Judge Reade to do this? 
Do you know if that report is accurate?
    Ms. Rhodes. I know that defense counsel were contacted 
somewhat in advance, at least some of them were.
    Ms. Lofgren. By Judge Reade?
    Ms. Rhodes. That is my understanding. I don't have all the 
details.
    Ms. Lofgren. Given the number of individuals apprehended in 
this raid, I am curious of who picked the ratio of the number 
of defendants to lawyer? You know, ordinarily, one has--you 
know, you are charged with a crime, you have your lawyer to 
represent you. But these were bunches of defendants with a 
single lawyer. What guided you on the ratio? Do you know what 
the----
    Ms. Rhodes. I don't know who selected that ratio----
    Ms. Lofgren. Was it the judge, do you think?
    Ms. Rhodes. I don't know. I do know that she contacted the 
lawyers to keep the date available. I don't----
    Ms. Lofgren. I am sorry.
    Ms. Rhodes. It is not uncommon in immigration cases----
    Ms. Lofgren. Well, these were prosecution of crime, though. 
These were not immigration cases.
    Ms. Rhodes. Excuse me. It is not uncommon in immigration--
criminal immigration cases to have a defense lawyer represent 
most----
    Ms. Lofgren. But this was not a prosecution for a criminal 
immigration matter. It was an identity theft prosecution.
    Ms. Rhodes. The pleas that were actually conducted were not 
on identity theft. They were on other documents so it was a 
violation----
    Ms. Lofgren. Right. That was the plea, but the----
    Ms. Rhodes. That is correct. My point is simply this, not 
to quibble over the charges but to simply say in these kinds of 
cases it is not uncommon to have defense lawyers represent 
multiple clients.
    Ms. Lofgren. Let me ask you, in terms of the--during the 
raid, it has been reported--I don't know if it is true--that 
the ICE officers arrested and interviewed each of the arrested 
workers before they had access to criminal defense counsel. 
Were they Mirandized, and, also, was any of the information 
obtained in those interviews used in the prosecution--the later 
criminal prosecution?
    Ms. Rhodes. They were Mirandized.
    Ms. Lofgren. By the ICE interviewers?
    Ms. Rhodes. Yes.
    Ms. Lofgren. Did the decision to threaten the workers with 
aggravated identity theft charges that would require prison 
time of mandatory minimum of 2 years come from main Department 
of Justice, or was the final decision made in the U.S. 
Attorney's Office, and is this a new policy at DOJ?
    Ms. Rhodes. You know, all of the charging decisions were 
made by the career prosecutors in the local office.
    Ms. Lofgren. So DOJ didn't have anything to do with it? The 
main office?
    Ms. Rhodes. DOJ was consulted because of the size of the 
operation and to ensure that all constitutional protections 
would be afforded. It was also consulted because it was a fast-
track operation and----
    Ms. Lofgren. Well, let me be more precise on my question.
    The decision to charge them with a criminal offense, as 
opposed to what has often been the case to administratively 
process and deport these individuals, was that a DOJ----
    Ms. Rhodes. That was----
    Ms. Lofgren [continuing]. Main----
    Ms. Rhodes [continuing]. Made by the career prosecutors in 
Iowa, and it was made primarily for two reasons: in order to 
obtain cooperation and also because there was a case that they 
were----
    Ms. Lofgren. Cooperation in what?
    Ms. Rhodes. Because a part of every one of the plea 
agreements was that they would continue to cooperate in the 
government's ongoing investigation.
    Ms. Lofgren. But aren't they going to be deported? They are 
not going to be here to cooperate with you.
    Ms. Rhodes. They are here for the next 5 months, and there 
is a case where--a case in the district of Nebraska, which is 
the same circuit, which dismissed a case against a corporation 
precisely because the workers were no longer available----
    Ms. Lofgren. So it may be the government's intention that I 
am to keep these individuals here past their sentence as 
material witnesses to the ongoing--is that what you are telling 
me?
    Ms. Rhodes. I can't speak to that, but I can say that the 
investigation is ongoing and that cooperation was a key 
component to the criminal plea agreements.
    Ms. Lofgren. But let me ask a final question because my 
time is expiring. But were any of the defendants notified of 
their right to contact their consular officers, as required 
under the Vienna Treaty?
    Ms. Rhodes. Members of the consulate from all of the 
countries were present on location.
    Ms. Lofgren. Okay. So they were all there.
    I am going to turn now to Mr. Gutierrez for his 5 minutes, 
and as I mentioned earlier, we may have a second round of 
questions since there aren't that many Members here and we have 
lots of issues and material that we would like to learn about.
    Mr. Gutierrez. Thank you very much.
    I would like to ask Ms. Rhodes, is this--I am going to read 
something, and tell me whether it is true or not.
    ``If you plead guilty to the charge of knowingly using a 
false Social Security number, the government will withdraw the 
heavier charge of aggravated identity theft, and you will 
receive a term of 5 months in jail, be deported without a 
hearing, and placed on supervised release for 3 years. If you 
plead not guilty, you could wait 6 to 8 months for a trial 
without right to bail since you are an immigration detainer. If 
you win at trial, you will still be deported and could wind up 
waiting longer in jail than if you plead guilty. You would also 
risk losing at trial and receiving a 2-year minimum sentence 
before being deported.''
    Is this is a copy of the interpretation of what was asked 
to be interpreted to the 300-and-some-odd detainees. Is that an 
accurate interpretation?
    Ms. Rhodes. Well, I understand that that was the 
interpreter's rendition of what the choices were. What I would 
say is----
    Mr. Gutierrez. Could you give--I am the detainee.
    Ms. Rhodes. Right.
    Mr. Gutierrez. Tell me. Give me the plea agreement.
    Ms. Rhodes. That they could--that they were charged with 
two offenses originally. They were charged with the underlying 
document offense because they had a false document. They were 
also charged with aggravated identity theft because the 
documents belonged to real people, and each one of the people 
who pled guilty admitted to that. And so, yes, those were the 
two choices that they faced.
    Mr. Gutierrez. And if I go to--so but I was offered a 
lesser of two charges?
    Ms. Rhodes. Right.
    Mr. Gutierrez. Okay. And if I didn't accept the lesser of 
two charges, then I would be--wait in jail 6 to 8 months, 
possibly for a trial, and then the minimum, if I am convicted, 
is 2 years under the aggravated identity theft?
    Ms. Rhodes. They can go to trial, and they can fight the 
offense and take whatever verdict the jury gave them.
    Mr. Gutierrez. But you did tell them they would be deported 
nonetheless whether they win or lose?
    Ms. Rhodes. Well, that wasn't--as I understand that, that 
wasn't a conversation the government----
    Mr. Gutierrez. Well, you know what, then, you see, there is 
a big flaw here because if the interpreter--who hired the 
interpreter?
    Ms. Rhodes. The interpreter was arranged by the court. 
There were----
    Mr. Gutierrez. By the court. So this is an officer of the 
court.
    Ms. Rhodes. That is correct. But they are interpreting what 
the defense counsel is saying to the client.
    Mr. Gutierrez. Okay. So then we have--okay. So we still 
have a problem. We still have a problem with this proceeding 
because, if I am the detainee and the interpreter is there--and 
the interpreter is pretty knowledgeable because these 
interpreters, this isn't their first trial. Many of these 
interpreters have gone through hundreds of trials; isn't that 
true?
    Ms. Rhodes. And so have the defense counsel.
    Mr. Gutierrez. And so have the defense attorneys. Good. So 
we have defense attorneys who know what they are doing--
according to you, your testimony--and interpreters who know 
what they are doing.
    So if the interpreter is telling us that this is what he 
was asked to interpret, we have a problem here because that is 
not your--that is not what you are offering; right?
    You are contesting that this interpretation--right--is what 
was the offer to the detainee.
    Ms. Rhodes. No. I think it was consistent. They would 
have----
    Mr. Gutierrez. It was consistent. So basically what you 
have done--now, did you make the decision to charge them--the 
Department of Justice--or did Homeland Security make the 
decision to charge them with aggravated identity theft?
    Ms. Rhodes. The charging decisions were made by the career 
prosecutors in the office in Iowa.
    Mr. Gutierrez. From the Department of Justice?
    Ms. Rhodes. Yes.
    Mr. Gutierrez. They are the ones that made the decision.
    Was there any information given from Homeland Security that 
well over 100 of the Social Security numbers really didn't 
match to anyone.
    Ms. Rhodes. No. For everybody who pled guilty, Social 
Security confirmed that the Social Security number did in fact 
belong to a real person.
    Mr. Gutierrez. Okay. Did in fact belong to a real person.
    Ms. Rhodes. That is correct.
    Mr. Gutierrez. So were there any in the underlying 
indictment or charges that you made to the 400--were there any 
Social Security numbers that didn't belong to anybody? That 
really weren't useful Social Security numbers?
    Ms. Rhodes. There were some that----
    Mr. Gutierrez. There were some?
    Ms. Rhodes. Yes.
    Mr. Gutierrez. Okay. So what you did is you carefully went 
back--now, when--you said there were two charges; right? Could 
you explain the two charges? There was aggravated identity 
theft, and what was the other one?
    Ms. Rhodes. Whatever they were charged with as an 
underlying crime. For some it was submitting a false document 
to obtain employment. For some it was having a false 
immigration document. There were a few underlying charges that 
were used.
    And let me correct if I misspoke. It wasn't 100 percent of 
the 306 people that had a real person's identity. It was the 
vast majority. There were a few that----
    Mr. Gutierrez. Okay. Okay. So it wasn't 100--so then these 
people basically lied to the court when they admitted to 
knowingly--right?--having a false identity since I cannot 
knowingly have a false identity to an identity that I created 
myself.
    Ms. Rhodes. Well, no. Then they would have--they would not 
have pled to that.
    Mr. Gutierrez. But you said that some of them didn't have 
a----
    Ms. Rhodes. Right. But----
    Mr. Gutierrez [continuing]. Social security number. I mean, 
I would ask the court reporter to repeat what you said, but you 
just stated that some of them did not have a Social Security 
number which indeed was being used by someone.
    Ms. Rhodes. Right. It was a Social Security number not 
being used by somebody, but the charges would have been--they 
would not--those people would not have been asked to admit 
something false.
    Mr. Gutierrez. Well, you know, we have--my 5 minutes are 
up, but what I gathered was--from your testimony--that there 
were some people. First, you corrected yourself twice.
    Ms. Lofgren. The gentleman's time has expired.
    We will have one more round of questions so that we can get 
any additional pieces of information that we wish to get.
    And I will turn now to Mr. King.
    Mr. King. Thank you, Madam Chair.
    To start this off, I was actually waiting for Mr. Gutierrez 
to come back so he could hear from me directly and understand 
my position.
    My position was represented to this panel inaccurately. It 
has been consistently for enforcement of immigration laws, 
against those who cross the border illegally, against those who 
willfully overstay their visas, against those who hire people 
who are unlawful, where it is proven unlawful to work in the 
United States, and I don't believe that the gentleman from 
Illinois can come up with a logical enforcement bill, and I am 
not a co-sponsor of.
    It isn't fining employers that I am after. I am after 
bringing the departments of the Federal Government together and 
working in cooperation so that we can effectively assist ICE 
and the other agencies in enforcing immigration law. That is my 
stand, and that is my position, and it is unusual--and I 
apologize to the people that are here to testify today who do 
not always see the activities of this Committee. It is unusual 
to see a Member of Congress misrepresent a position of another 
Member of Congress, especially on the same panel, especially 
when we are working together on a day-by-day basis and there 
should be no misunderstanding. In fact, I don't believe there 
was one.
    So I turn to Ms. Rhodes, and I would ask you the question 
that why is the U.S. attorney for the Northern District of Iowa 
not here to testify today?
    Ms. Rhodes. It was decided that I would be here to testify 
and that I was involved in reviewing the fast-track program 
itself. I have reviewed all of the underlying documents 
relating to these charges and I do have an understanding of not 
only this case but some others.
    Mr. King. I am fully convinced of that. But isn't it also 
true that he is conducting further investigations and it is 
policy not to--for a U.S. attorney not to come testify before 
Congress if there is an ongoing investigation that he is 
heading up and that--I don't know of exceptions, and do you 
know of any exceptions?
    Ms. Rhodes. That is right.
    Mr. King. No exceptions. Then I think that clarifies why 
Mr. Dummermuth isn't here today.
    Then I would turn to Ms. Forman. And can you first--can you 
tell us why Agriprocessors was targeted for worksite 
enforcement? What were the original indicators?
    Ms. Forman. ICE received information from very reliable 
sources that Agriprocessors was--had hired a number of illegal 
aliens and had built their workforce, they were an egregious 
violator in terms of hiring large numbers of illegal aliens.
    Mr. King. And, you know, you are going--you probably have 
reviewed the testimony of one of the interpreters, Mr. Camayd-
Freixas. And I first ask you, have you reviewed his written 
testimony?
    Ms. Forman. Yes, I have.
    Mr. King. And so, as an opportunity to answer the charges 
that we are--this Committee is going to hear, how would you 
compare your holding area? He compared it to a concentration 
camp. How would you describe it?
    Ms. Forman. Well, first, personally and professionally, I 
find that quite offensive. Being of Jewish faith, I equate 
concentration camps to the murder of over 6 million Jews and 
other individuals.
    ICE is a professional law enforcement agency. Our detention 
centers have to meet certain standards, and the one that was 
put together in--in Iowa was one that I would--that was first 
rate. It had pods, it was full of beds, there were foods, there 
were meals, there was television, there was recreation centers. 
Most concentration camps that I have become aware of don't 
possess those items.
    Mr. King. Would it be possible to--to bring enforcement 
against employers without identifying illegal employees whom 
they had hired? Is it possible to bring a prosecution--a 
successful prosecution and conviction? I will go first to Ms. 
Forman--if I have time, back to Ms. Rhodes--but would it be 
possible to do so without--without first identifying illegal 
workers and prosecuting them so you have got those facts to 
work with?
    Ms. Forman. Certainly, illegal aliens are a key component 
of any illegal worksite operation. However, I mean, there are 
different methodologies to work these types of cases, and 
oftentimes you can't start from the top down. You have to work 
your way up in investigations----
    Mr. King. If I could quickly then--excuse me--go to Ms. 
Rhodes.
    Do you know of any circumstances by which we could 
successfully get convictions on employers if we didn't have 
the--if we didn't have the evidence of the illegal employees.
    Ms. Rhodes. Certainly we have to have evidence that 
illegals were hired.
    Mr. King. Thank you. I think that makes my point, and I 
thank the witnesses.
    And I yield back the balance of my time.
    Ms. Lofgren. The gentleman yields back.
    I am curious, do you know whether any of the people who 
were--who pled guilty have been deported yet, or are they all--
they are currently in the United States?
    Ms. Rhodes. I think ICE could probably speak more 
accurately to that.
    Ms. Lofgren. Do you know?
    Ms. Forman. There are over 200 individuals who currently 
are in still Federal custody. There have been approximately 30 
that have been deported thus far. Ten are still in detention.
    Ms. Lofgren. So 30 of them have been deported already?
    Ms. Forman. To the best of my knowledge, yes.
    Ms. Lofgren. So I guess that makes me question how we are 
going to proceed on the prosecution of the potential labor 
violations without the witnesses. It is pretty clear that ICE 
is--you know, and that is provided for in law. I don't quarrel 
with that. But once a person has finished serving their 
criminal sentence, they are deportable and we are deporting our 
witnesses. So I think the concerns about destroying this case 
in terms of the employer's misconduct are well founded.
    I am interested, Ms Rhodes, on the approach in this case. A 
common practice--well, let me just ask this. Well, oftentimes 
defendants--or in this case criminals--will be offered a 
sentence reduction for producing substantial assistance in the 
prosecution of others. Is that envisioned in these cases?
    Ms. Rhodes. Yes. In fact, that was the whole reason for 
having that term in the plea agreement, so that the government 
could then find out who would be the best witnesses. And there 
are a number of ways of preserving their testimony in any 
criminal proceedings should one be necessary.
    Ms. Lofgren. But the plea agreement itself--item 6, last 
sentence--says, ``Due to the government's agreement to a 
substantially reduced sentence, defendants shall have no 
expectation of any additional sentence reductions or 
substantial assistance.''
    So wouldn't--really, you have lost your leverage once you 
have got the person, they have pled guilty--this is really 
backwards from the way these things are usually done, isn't it?
    Ms. Rhodes. It is not the way it is usually done, but that 
is the way it was done here, and there will be no additional 
benefit. The benefit was given upfront.
    Ms. Lofgren. So the opportunity used--5(k) in the 
sentencing guidelines--is really out the window?
    Ms. Rhodes. Well, it wasn't 5(k), it was charge bargaining 
in this case.
    Ms. Lofgren. Okay.
    Ms. Rhodes. Charges reduced.
    Ms. Lofgren. Let me ask, in terms of access to immigration 
lawyers, was there an effort made, when the defense counsel 
were secured, to find people who knew anything about 
immigration law so they could understand the interplay between 
the two bodies of law, the criminal law defense and the 
immigration law?
    Ms. Rhodes. Well, in fact, several immigration lawyers 
showed up at the site and were given access, actually, before 
criminal charges were brought in many cases. They were given 
access even during the booking process.
    Ms. Lofgren. So there were several immigration lawyers and 
how many individuals?
    Ms. Rhodes. Well, there were 300, but there were joint 
meetings held between the immigration lawyers and the defense 
counsel, and as a result of those meetings and information that 
was exchanged, some of the defense lawyers did bring 
immigration issues to the attention of the prosecutors.
    Ms. Lofgren. Let me ask in terms of, again, the immigration 
benefits. I understand most of these individuals, at least from 
the press reports, were from Guatemala, which has a very 
checkered human rights record. Was there screening by the 
department to identify whether any of these individuals had 
been victims of torture or might have a claim to asylum based 
on the situation in Guatemala?
    Ms. Rhodes. I think--I can answer----
    Ms. Lofgren. Do you know the answer, Ms. Forman?
    Ms. Forman. I am not aware of that coming up, no.
    Ms. Rhodes. No one did claim asylum. I do know that.
    Ms. Lofgren. Well, they ordinarily--you know, not well 
educated, Guatemalan meat cutters might not really be aware of 
the law of political asylum.
    Ms. Rhodes. Right. But they had lawyers who were consulting 
with immigration lawyers.
    Ms. Lofgren. Well, that is--we received reports that 
immigration lawyers who came forward were actually turned away. 
But I will explore that with the immigration lawyers that are 
on the next panel.
    Let me ask you this: How did you know in advance who to 
give a charge reduction to in exchange for their cooperation?
    Ms. Rhodes. It was given to everybody upfront so that we 
would have the opportunity to later find out who would be the 
best witnesses.
    Ms. Lofgren. That is kind of a pig in a poke, isn't it?
    Ms. Rhodes. Well, it was a risk we took.
    Ms. Lofgren. You know, I want to get on to the next panel 
so I am not going to go any further, but I think certainly 
there are a number of issues that are posed here for me.
    I would just also note that the--in terms of the 
prosecution of low-level misdemeanor immigration violations--
you mentioned the Southwest border--we had testimony in the 
Administrative Law Subcommittee just a few weeks ago that, 
although there has been substantial increases, that came at a 
cost of a 40 percent reduction in organized-crime prosecutions 
in the same area. So, you know, we are prosecuting the busboys 
and the nannies, but the drug cartels are no longer having to 
worry.
    My time has expired.
    Let me turn to Mr. Gutierrez to see if he has additional 
questions.
    Mr. Gutierrez. Sure. Thank you very much.
    Yes, you said in order to obtain the cooperation of the 
detainees you did what, Ms. Rhodes?
    Ms. Rhodes. They were offered--part of the plea agreement 
was that every detainee was offered a cooperation term, which 
means that they would cooperate in the government's ongoing 
investigation.
    Mr. Gutierrez. Let me ask you, so you say that the lawyers 
there made the decision at that moment to pursue the indictment 
for aggravated identity theft, that these were lawyers in Iowa.
    Ms. Rhodes. That is correct.
    Mr. Gutierrez. They made the decision. Is that usually the 
way it works? I thought there was like a chain of command?
    Ms. Rhodes. No. Individual decisions on charging are left 
to the district. In this particular case, what was approved by 
the department was the fast-track program itself, which meant 
that they presented to us that they were planning on doing a 
large-scale operation and that they wanted to do it under the 
fast-track. The point----
    Mr. Gutierrez. Who wanted to do it under the fast-track, 
the lawyers from ICE, or the lawyers from DOJ?
    Ms. Rhodes. It is the career DOJ lawyers----
    Mr. Gutierrez. Okay. The career DOJ lawyers.
    Ms. Rhodes [continuing]. Who present this. The benefit is 
it allows--it benefits the community because it allows for a 
large law enforcement operation to take out a large number of 
criminal defendants all at once. It does it in a way that 
doesn't flood the courts. It does it more efficiently, and the 
defendants receive the benefit of that by getting a drastically 
reduced sentence.
    Mr. Gutierrez. They get a reduction to----
    Ms. Rhodes. Those programs exist permanently in many 
districts, and they also can be done on a case-by-case basis--
--
    Mr. Gutierrez. Let me ask you something. If this is the 
first time this was ever done, Postville's precedent setting?
    Ms. Rhodes. Pardon me?
    Mr. Gutierrez. This had never been done before, this fast-
tracking?
    Ms. Rhodes. No. Fast-tracks in worksite enforcements have 
been done before.
    Mr. Gutierrez. And at this scale?
    Ms. Rhodes. I am not aware of anything at this precise 
scale, nor am I aware----
    Mr. Gutierrez. Would you--I don't expect that you have the 
information. Could you give to the Committee when this was 
first done? Because it is new to me, and it is new to many 
Members of this Committee and I know some of the Members of 
Congress, which are the ones, in the end, that establish the 
immigration policies for this Nation. I mean, there should be 
some coordination between what we do here and the laws we enact 
and what you carry out at the executive branch of the 
government, especially the judicial branch of government.
    So could you please afford the Committee at some point in 
the very near future when you first began this fast-tracking, 
what the first case was, so that we could have some history of 
when this began? Because it is kind of new to me in terms of 
what gets done.
    Because, when you charged the people, you charged them with 
not knowingly using a false Social Security number, but you 
really charge them with aggravated identity theft--right?--and 
then you let them cop a plea for the lesser of the two charges?
    Ms. Rhodes. Right. I believe the charges were with both, 
and then the greater charge was dismissed.
    Mr. Gutierrez. And then the greater charge was dismissed.
    So let me ask you, if I am a detainee, do I have a right to 
bail? Any one of the 300 detainees, was there a right to bail?
    Could I have a reasonable right to bail in getting out of 
jail while my----
    Ms. Rhodes. On----
    Mr. Gutierrez [continuing]. If I say no?
    Ms. Rhodes. Well, there is a--you might have a criminal 
right to bail, but the fact of the matter is you are going to 
be detained by ICE for being here illegally.
    Mr. Gutierrez. Very good. So there is no right to bail. I 
mean, they are basically in jail regardless. I can't get out of 
jail.
    So if I have children I have to attend to and a spouse I 
have to attend to--things that I am sure your prosecutors were 
knowledgeable of--that these people had--I mean, the attorneys 
must have communicated the guy has a--if he didn't, then the 
attorney did a terrible job. The guy has a wife, the woman has 
children, spouse, people who rely on them. I mean, these are 
immigrants that are coming to the United States.
    Ms. Rhodes. Yes. That was the basis of the humanitarian 
relief used.
    Mr. Gutierrez. That was the basis for the humanitarian. But 
yet you did have someone who might have had relief who didn't 
take relief because his wife is an American citizen and he has 
American citizen children, and yet he took the plea agreement 
also. So----
    Ms. Rhodes. Some of those were also allowed relief on some 
of the terms.
    Mr. Gutierrez. Well, some of them but not all of them. Not 
all of them.
    Ms. Rhodes. It was made on a case-by-case----
    Mr. Gutierrez. Because the way you paint the picture is, 
``Oh, we did this for the good of the detainees. We offered 
them an opportunity to kind of walk away.'' When indeed, most 
of the time that is not what happened. Most of the time what 
happens is they are detained and they are deported. Those are 
the statistics that we get from ICE. They detain people; they 
deport them.
    This was a very different situation and the manner in which 
it was conducted at Postville because the statistics don't lie. 
You basically said to them--and I know you want to tell us that 
you were offering them a deal of a lifetime, but it really 
wasn't much of a deal. You charged them with a felony that had 
a 2-year minimum. You thereby tied the hands of the judge. He 
had to sentence them to 2 years if they were found guilty. They 
had to stay in jail. They were afforded an opportunity to stay 
in jail for 6 to 8 months, wait for a trial, when indeed you 
said to them, ``Well, we will give you 5 months.''
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Gutierrez. Because from my point of view--and I will 
wrap it up--it is just--if you are going to charge somebody 
with something, charge them knowingly and with the intent. You 
did not have one complaint of identity theft against any of the 
people at this Agriprocessors plant, not one complaint of 
identity theft.
    Ms. Lofgren. The gentleman's time has expired.
    I recognize the gentlelady from Texas Ms. Jackson Lee for 5 
minutes.
    Ms. Jackson Lee. Thank you, Madam Chair, and I want to 
again thank you and the Ranking Member for, I think, what is a 
very important hearing.
    Let me thank Ms. Rhodes and Ms. Forman for their service as 
well, and allow me to again reemphasize the respect I have for 
law enforcement and ICE agents, in particular the station in 
Houston, that has made as best an effort as they could to be as 
communicative and as sensitive to our concerns--our 
humanitarian concerns and also the concerns our office has 
expressed what we think are ineffective approaches to our 
situation.
    To that end, I would like to ask Ms. Forman to bring this 
back in writing--my colleague mentioned it for Postville, but I 
want a report on the Shipley Do-Nuts arrests and U.S. Rags--or 
Rags USA as relates to the number of people arrested, the 
number of people released, the number of people in detention as 
we speak, the status of the investigation and the status of the 
prosecution and the cost. And I also want to know the--any 
efforts to increase the staffing in the Houston office for ICE 
agents.
    Ms. Rhodes, let me--and I know you might not have that at 
your fingertips so if I can have that in writing. If you have 
it, you might want to comment.
    But let me--Ms. Rhodes, are you aware of the pending 
legislation--have you had a chance to at least have summaries 
of the kinds of legislative initiatives, like comprehensive 
immigration reform or some aspects of the legislation that has 
to do with felonies?
    Ms. Rhodes. I am sorry. I am not familiar with the details 
of the legislation that is pending.
    Ms. Jackson Lee. Do you have a sense that the thrust of the 
legislation is that people who are convicted of felon are 
deported, in essence, permanently? Are you familiar with that 
approach that someone who is a convicted felon would not be 
able to access what has been called access to citizenship?
    Ms. Rhodes. I know that typically those convicted of 
felonies are deported.
    Ms. Jackson Lee. Right. So what we have here in Postville, 
for example, what is typically a civil or a pathway for someone 
to be deported and possibly stay out of the country for 10 
years, the psychic may have been by those lawyers on the ground 
that, if these individuals are convicted of felony charges, 
then whatever approach we may take in moving forward on 
immigration reform, they would be forever barred from coming 
back to the United Sates?
    Ms. Rhodes. I don't know whether or not they would be 
forever barred.
    Ms. Jackson Lee. But they certainly would have a far more 
difficult time. I think they would be forever barred. I don't 
think there is a pathway for felons to come back in the United 
States.
    Ms. Rhodes. They are permanently barred.
    Ms. Jackson Lee. They are permanently barred. So do you 
have any indication that that was the approach that these 
lawyers were taking?
    Ms. Rhodes. No, I don't. I know that felonies are graded. 
Some you can apply for readmission after 10 years, some after 
15 years, some are----
    Ms. Jackson Lee. But if you have a young child and a spouse 
here, certainly it would be a far more difficult hurdle to 
overcome; is that not correct?
    Ms. Rhodes. That is correct.
    Ms. Jackson Lee. And to your knowledge--I know that they 
were charged with identity theft--and I abhor identity theft--
but to your knowledge, short of that creative thinking at that 
time--to your knowledge--or at least these individuals were at 
first approached by the law because they were undocumented?
    Ms. Rhodes. No, that is not correct. It is because of the 
widespread identity theft. What had happened was Agriprocessors 
is the largest employer in this town.
    Ms. Jackson Lee. So you looked----
    Ms. Rhodes. They had over 70 percent that were illegal, and 
as the investigation progressed, it became clear that they were 
also over 70 percent having Social Security numbers belonging 
to somebody else.
    Ms. Jackson Lee. And was that contributed to by the 
employers? Were they part--was the allegation that they were 
part of the conspiracy?
    Ms. Rhodes. I would say this: It was a large percentage of 
the----
    Ms. Jackson Lee. Okay. So, therefore, the culprits were 
involved were also the employers as well, and these individuals 
received, in essence, a benefit, but they were there to work. 
Is that my understanding?
    Ms. Rhodes. They were there to work, and two of the 
supervisors who helped them get the false documents have been 
indicted.
    Ms. Jackson Lee. All right.
    Let me move quickly to Ms. Forman.
    The scene for Houston was this: 200 people surrounding U.S. 
Air Rags--I will get the name--Air Rags USA, guns drawn, doors 
kicked in, a little 4-foot, 5-foot female bammed against the 
wall who happens to be a citizen, the woman falling from 20 
feet, the original then an arrest that went forward--and I am 
going to finish in just a moment Ms. Chairwoman if you would 
indulge me--then the arrest was in the morning at their 
residence, surrounded by ICE officers. They arrested, and it 
was a commitment that they would be released on bond by 12 noon 
of that day. They didn't accede to that. They were then taken 
from the detention center with cameras blasting, neck chains, 
leg chains and all kinds of chains----
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. Could she just answer and say was that 
purposeful? Does that help you to intimidate by performing in 
that manner?
    Ms. Forman. In all due respect, I have spoken to the 
special agent in charge, and that did not occur.
    Ms. Jackson Lee. With all due respect, it did occur, and I 
would like a full report from that special agent in charge as 
to what occurred because it did occur.
    Ms. Lofgren. Well, the Committee will ask for a written 
report on the subject.
    Ms. Jackson Lee. I yield back.
    Ms. Lofgren. Gentlelady's time has expired.
    I would just like to note that the Committee hearing will 
remain open for 5 days. We may have additional questions, which 
we will submit to you in writing. We would ask that you 
promptly respond if that occurs. And I would say, to the extent 
that the questions are specifically about what happened in 
Waterloo, we would ask that you have Mr. Dummermuth submit the 
information he has personal knowledge of because we want direct 
information.
    And as part of the question to be answered in writing, the 
warrant request mentions methamphetamine at the plant, which is 
inconsistent with the testimony you have just given, and I 
would just like an explanation. I mean, I realize you probably 
didn't prepare this affidavit, and if you could explain that in 
writing, that would be very helpful.
    And we thank you both for your testimony.
    We will now call the third and final panel to the table.
    As the panel is coming forward, I will begin by introducing 
them.
    I am pleased to welcome Erik Camayd-Freixas. Dr. Camayd 
holds master's and doctoral degrees in language and literature 
from Harvard University and a bachelor's degree in psychology 
from Tufts University. He is professor of legal interpreting 
and director of translation studies at Florida International 
University and the former director of training for the State of 
Florida Interpreter Services program.
    Dr. Camayd is the author of numerous books and articles and 
has lectured widely around the world on linguistic and cultural 
studies. Dr. Camayd has been a federally certified interpreter 
since 1985, and he frequently serves in Federal and state 
courts as an expert witness in semantic and linguistic 
analysis.
    The next witness is David Leopold. Mr. Leopold is the 
principal in the David Wolfe Leopold & Associates in Cleveland, 
Ohio. He has practiced immigration and criminal law for nearly 
20 years.
    For nearly 10 years, Mr. Leopold has also served as a 
criminal justice--CJA--plan defense attorney for the U.S. 
District Court for the Northern District of Ohio, representing 
criminal defendants in Federal criminal matters upon court 
appointment.
    In addition to his practice, he directs the immigration law 
curriculum and teaches immigration law at the Case Western 
Reserve University School of Law and serves as an adjunct 
professor of immigration law at the Cleveland-Marshall School 
of Law at Cleveland State University.
    Mr. Leopold is also a frequent speaker on immigration 
consequences of criminal convictions at Federal, State and 
local bar continuing legal education seminars.
    He is testifying today on behalf of the American 
Immigration Lawyers Association. He currently serves as AILA's 
first vice president.
    I am also pleased to welcome Professor Robert Rigg. Mr. 
Rigg is an associate professor of law at Drake University Law 
School in Des Moines, Iowa. He is the president and founding 
member of the Iowa Association of Criminal Defense Lawyers and 
currently sits on the Iowa Supreme Court Attorney Disciplinary 
Bar. He previously sat on the Iowa Supreme Court Advisory 
Committee for Rules of Evidence and Rules of Criminal 
Procedure.
    He has been published in the Boston University Public 
Interest Journal, the American Journal of Criminal Law, the T. 
M. Cooley J. Practice in Criminal Law and West Law's Iowa 
Practice of Criminal Law.
    He has been quoted on NPR by the Los Angeles Times, the 
Associated Press, Newsday, USA Today, and, finally and not 
unimportantly, the Des Moines Register.
    Our final witness is Ms. Lora Costner. Mrs. Costner is a 
resident of Newport, Tennessee. She is married and the mother 
of two children, Molly and Mason. She and her husband were 
victims of identity theft, and her congressman was here this 
morning to stick up for her, and we appreciate your willingness 
to be here as well.
    So if we may begin with Dr. Camayd. We have five--your full 
written testimony--and that of all of you--will be made part of 
the official record and--but we do ask that your testimony 
consume about 5 minutes.
    And we will begin with you, Doctor.

     TESTIMONY OF ERIK CAMAYD-FREIXAS, PROFESSOR OF MODERN 
          LANGUAGES, FLORIDA INTERNATIONAL UNIVERSITY

    Mr. Camayd-Freixas. Thank you, Chairwoman Lofgren.
    Ms. Lofgren. We need the microphone on, though.
    Mr. Camayd-Freixas. Thank you, Chairwoman Lofgren, Ranking 
Member King, honorable Members of the Subcommittee.
    I was 1 of 16 interpreters who served both weeks of the 
Postville hearing. Unlike judges, prosecutors or attorney, I 
was present at every step of the process. It is my duty as an 
impartial expert witness, an officer of the court, to ensure 
that the court is not misled and to bring to its attention any 
impediments to due process. I have done so in the best interest 
of the Federal court I am proud to serve and with the 
conviction that, if our honorable judges had known how this 
judicial experiment would turn out, they would have never 
allowed it.
    In my statement submitted for congressional record, I 
document the flaws. Detainees' quarters were not certified. The 
court failed to maintain physical and operational independence 
from ICE prosecution and a level playing field for the defense.
    There was inadequate access to counsel, no meaningful 
presumption of innocence. Defendants appear not to understand 
their rights and charges. Bail hearings and other due process 
rights were denied. The charge of identity theft used to force 
a plea lacked foundation and was never tested for probable 
cause.
    Defendant did not know what a Social Security number was 
and were not guilty of intent crime. Guilty pleas were obtained 
under duress. Judges had no sentencing discretion pursuant to a 
binding plea agreement. Sole providers whose families are in 
jeopardy now endure a cruel and unusual psychological 
punishment, the foreseeable effect of a prison time on common--
--
    Abridgement of process produced wholesaling justice at the 
other end. Parents begging to be deported put in jail at public 
expense. Proud working mothers branded like cattle with the 
scarlet letter of an ankle monitor dehumanized and reduced to 
begging at the doors of the church as they were released on 
humanitarian grounds.
    The town of Postville devastated. The kinship ties are 
noble people are quick to forge with all newcomers painfully 
severed. Families and friends separated.
    I saw the Bill of Rights denied and democratic values 
threatened by the breakdown of checks and balances, and it all 
appeared to be within the framework of the law pursuant to a 
broken immigration system.
    Postville lays bare a grave distortion in the legal 
structure of government. Post 9-11, ICE was granted power to 
wage the war on terror, but since 2006, it has diverted 
resources even from disaster relief to an escalating and 
unauthorized war on immigration.
    Yet the men and women of ICE are not to be faulted for 
doing their duty. It is unrealistic in our adversarial system 
to ask prosecutors to exercise restraint and not use all legal 
mean to win convictions. The fact is our laws have not kept up 
with this growth in enforcement.
    Congress failed to pass immigration reform, and ICE has 
filled the legal void with its own version of it. Now we have a 
serious contradiction, the growth of authoritarian rule inside 
a democratic government. This entity can simultaneously wield 
immigration and criminal codes plus issue administrative rules, 
leaving no room for constitutional guarantees.
    It co-ops other branches of government--Social Security, 
U.S. Attorney, Federal court--and uses appropriations to 
recruit local police for immigration enforcement, setting 
neighbor against neighbor and dangerously dividing the Nation.
    With the help of local sheriffs, Postville repeats itself 
daily while the harshness of border enforcement is reenacted in 
the American Heartland with great collateral damage to our 
citizens and community. It is a rush to raid as much as 
possible before Congress regains the vision and courage to 
restore the law of the land.
    Part of immigration reform is redefining jurisdiction 
over--ICE jurisdiction over immigration and criminal matters 
without impairing the agency's ability to defend us from 
terrorist threats. Since 2006, families have been separated on 
a scale unseen in the Americas since the Spanish Conquest, when 
it led to the extinction of Ameri-Indian nations. In Postville, 
we have the added moral burden posed by the presence of ethnic 
Mayan, testimonial people who constitute and endanger patrimony 
of humanity.
    I bring to this forum three requests from the people of 
Postville.
    First, our government has left a humanitarian crisis for 
Sister Mary McCauley and her good neighbors to cure. I call on 
all to contribute to St. Bridget's Church and on the Federal 
Government to respond with aid that guarantees survival for 
their schools, businesses and institutions. It is time for 
America to adopt Postville.
    Second, with regard to the imprisoned aliens, government 
says they have 300 criminals. The people say, ``Show us one 
victim of their crime or send them home.''
    Third, our national unity requires that Congress pass not 
only comprehensive but compassionate immigration reform as 
would befit the dignity of this great country built upon the 
shoulders of immigrants by their children.
    Thank you.
    [The prepared statement of Mr. Camayd-Freixas follows:]

               Prepared Statement of Erik Camayd-Freixas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Mr. Leopold, we would be pleased to hear from you.

TESTIMONY OF DAVID LEOPOLD, DAVID WOLFE LEOPOLD AND ASSOCIATES, 
     ON BEHALF OF AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Mr. Leopold. Chairwoman Lofgren, Ranking Member King----
    Ms. Lofgren. I think the microphone went off again. There 
you go.
    Mr. Leopold. My name is David Leopold, and I am the 
national vice president of the American Immigration Lawyers 
Association. I am honored to testify this afternoon before you 
about the conviction and prosecution of nearly 400 undocumented 
workers in Postville, Iowa.
    A prosecutor's duty is to do justice, not merely to 
convict. This cardinal principle was ignored by the government 
in its deal to criminalized undocumented workers in Postville, 
Iowa. The workers were denied access to counsel familiar with 
both immigration and criminal law. The defense counsel were put 
in at the untenable position of advising on plea deals without 
ability to assess the immigration consequences of the plea and 
the possibility that the clients might have full relief from 
deportation.
    The workers impacted by the raid were essentially coerced 
into giving up their rights under the immigration law, such as 
the right to a hearing before an immigration judge and a chance 
to apply for relief from deportation.
    The fast-tracking system concocted by the government 
amounted to a conviction and deportation assembly line, which 
exulted efficiency over fundamental rights. These poor, 
uneducated Guatemalan farmers were treated like the livestock 
prepared for slaughter at Agriprocessors. Shackled in groups of 
10, they were efficiently packaged, convicted and ordered 
deported and sentenced to jail time.
    This scheme was predicated on overcharging the workers and 
threatening them with 2-year mandatory minimum sentences. Faced 
with the choice of 5 months in prison and deportation or 6 
months in prison waiting for a trial which could lead to a 
mandatory minimum 2 years in prison and then deportation, these 
workers faced an impossible choice.
    In most cases, the defendants faced this choice without the 
advice of immigration counsel. This was a travesty of justice. 
Effective assistance of counsel to an immigrant in a criminal 
matter, including advice about whether or not to accept the 
terms of a plea agreement necessarily includes a thorough 
analysis of whether a defendant has acclaimed his citizenship, 
the immigration consequence of a plea or conviction at trial 
and the availability of relief from removal. Under the 
immigration law, a noncitizen may be eligible for adjustment of 
status, cancellation of removal and, of course, asylum.
    Dr. Camayd's essay recounts the compelling the story of a 
man from Mexico who worked at Agriprocessors for 10 years. He 
had two young U.S. citizen daughters, a 2-year-old and a 
newborn. On the facts, this man was clearly eligible to apply 
for cancellation of removal and legal permanent resident status 
because he was the sole support for these two young U.S. 
citizen girls.
    But the plea agreement deprived him of any opportunity for 
a life in the U.S. with his girls. He faced the impossible 
choice of--between fighting his case or succumbing to the plea 
deal, which forced him to waive his rights to a hearing. And he 
faced this life-altering dilemma without the advice of an 
immigration attorney. His case underscores the fundamental 
injustice that occurs where defendants don't have access to 
immigration counsel when evaluating a plea.
    To guarantee due process, Congress should do the following:
    Congress should enact legislation to protect the right to 
protect the right to immigration counsel in ICE enforcement 
actions.
    Most importantly, ICE should direct its enforcement 
resources for an investigations of high-level threats to 
national security and employers that deliberately violate the 
law, not workers who are merely trying to feed their families 
and to contribute to the U.S. economy and to our social fabric.
    The chilling spectacle that unfolded at the Cattle Congress 
is a stain on our judicial system and an affront to the core 
principles for which so many Americans have made and are making 
the ultimate sacrifice. Congress should act now to ensure that 
the Administration enforcement actions respect the core 
American ideals of due process and fairness.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Leopold follows:]

               Prepared Statement of David Wolfe Leopold

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Mr. Leopold.
    Mr. Rigg, we would be pleased to hear from you.

  TESTIMONY OF ROBERT R. RIGG, ASSOCIATE PROFESSOR OF LAW AND 
DIRECTOR OF THE CRIMINAL DEFENSE PROGRAM, DRAKE UNIVERSITY LAW 
                             SCHOOL

    Mr. Rigg. Thank you, Madam Chairwoman.
    I intend to address a specific concern of mine--and I think 
of the Criminal Defense Bar--in the process that was used at 
the Postville raids and, subsequent to those raids, implemented 
in Waterloo.
    The biggest problem that I have identified--or at least I 
feel this Committee should address--is the compression of time 
that was imposed on defense counsel in this particular case. 
That caused a cascade of other errors that could have occurred 
and may have affected these guilty pleas. Whether or not they 
will down the road, we don't know, and that is subject to 
judicial scrutiny, and that is subject to review by the courts, 
obviously.
    When the process was designed, this compression factor 
essentially put lawyers--competent lawyers--in a situation 
where they had very limited time to make very difficult 
decisions with very limited resources. They simply didn't have 
the time or the resources to do what they probably needed to 
do.
    What that does is you can take the most competent lawyer in 
this country, and if you put them in a timeframe like that and 
you aggravate it by appointing them to 10 clients at a time and 
say, ``You have got a week to make these decisions,'' that 
process is inviting those lawyers to make mistakes, not 
intentionally, not purposely, but you have created a situation 
where essentially giving somebody a lawyer but you have tied 
their hands behind their back. That is not consistent with due 
process, in my view.
    The other issues that tend to come up would be the 
individual representation by attorneys. Who came up with the 
number 10? Why 10? Why not 2? How come more lawyers weren't 
contacted prior to this raid by either the judge, evidently, or 
by someone with the U.S. Attorney's Office and brought into 
this so you would have more lawyers available?
    So you have a number of questions posed initially that I 
don't believe have been answered. I am not sure that they can 
be answered. The one thing I am sure of, the people that don't 
know the answers is the Criminal Defense Bar.
    Prior to the adoption of these proceedings, to my 
knowledge, no one from the Criminal Defense Association--the 
national or otherwise--was consulted prior to the enactment of 
these fast-track rules. The normal course that we would use on 
the Committees I have served on with the Iowa Supreme Court is 
that you would bring in opposing counsel and try to address 
pertinent issues prior to their occurrence so you can avoid 
situations where you are having 10 clients being represented by 
one lawyer, who also maybe not have immigration experience.
    The other problem, I guess, I have is the transparency of 
this process. This was an ambush essentially. There seems to be 
some security concerns by the folks from ICE about the 
Department of Labor being brought in on this. Well, obviously, 
you know, if there is concerns about that, you are not going to 
talk to anybody about this regarding the criminal defense side 
of it.
    And lawyers, from my understanding, were told not to 
discuss the invitation they received to the Federal courthouse 
in the Northern District of Iowa. That request was honored by 
those lawyers, they did not know, from what I understand, why 
they were being asked in, they didn't know until after the 
raids occurred and were essentially brought in and given a `` 
how to practice law in Federal court'' manual.
    Those--those lawyers who refused to participate, that 
manual was taken away from them. I don't understand that. I 
don't see why that manual would not be public record and should 
be made available to the Members of this Committee and to other 
Members for its critique and criticism. It may be the best 
manual in--on the world, but unless somebody critiques it and 
looks at it and reviews it from the other side, well, we don't 
know.
    The other thing that troubled me about this is the access 
to immigration attorneys. The reports that I received--and just 
as soon as 2 days ago--from a lawyer who actually went up to 
Postville who was contacted by family to go in and interview a 
client was essentially turned away by the ICE officials.
    So you have a series of issues, but they all start to 
cascade with the compression of the time, the number of clients 
that were being asked to handle, and eventually I would 
criticize the lack of input by the Criminal Defense Bar.
    Thank you. That is all.
    [The prepared statement of Mr. Rigg follows:]

                  Prepared Statement of Robert R. Rigg

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    All those bells and whistles mean we have votes. I am 
hoping we can get your testimony, Mrs. Costner, and then we 
will come back for our questions. So if you could give your 5 
minutes of testimony, and then we will recess till about 3:15.

                   TESTIMONY OF LORA COSTNER

    Mrs. Costner. Thank you for allowing me the opportunity to 
share my experience with you.
    In April of 2004, my husband and I acquired custody of my 
biological niece, and her biological mother--my now estranged 
sister--was in a relationship with an illegal immigrant. It is 
our understanding that our personal identification was stolen 
from the adoption paperwork.
    In April of 2005, we received a letter stating that my 
husband's driver's license would be suspended and there was a 
warrant for his arrest. At 3:30 a.m. in February of 2005, in a 
nearby town an impersonator--excuse me--who had no proof of 
insurance and a fake Social Security card with my husband's 
name on it got a speeding ticket. He signed his name--he 
printed actually--Jamey Dee Costner. He could not speak 
English.
    When the ticket wasn't paid, they obviously sent us a 
letter stating we had 7 days. We had to hire an attorney, who 
explained to the Department of Transportation that we were 
victims of identity theft.
    After that, they did not catch the gentleman that had done 
it. The detective who handled the case called us and advised 
that this same gentleman had worked at least two jobs in my 
husband's name, but the company that he worked for told us they 
would handle it with IRS.
    So later in that year, we thought everything was okay, and 
the immigrant was located, and despite being charged, we took 
time off from work and went to the court date, the D.A. told us 
it was the gentleman's third charge of taking the identity of 
American citizens and he would be deported back to Mexico and 
would not be allowed back into our country.
    Less than 30 days later, we received a phone call at 3 
a.m., and it was the same illegal immigrant. He was laughing, 
and in broken English he said, ``They do nothing to me.'' He 
went on to describe the make and model of the vehicles my 
husband and I drove and what time I left work, and then he 
mentioned the name of our daughter. He just laughed and--I was 
also pregnant at the time. And I called the police, and they 
told us that we need to get our phone number changed and there 
was nothing else they could do. So we just went on--you know, 
we had to.
    Then in 2007--and I had been off work due to an injury. In 
February of 2007, I called the Tennessee Department of Labor, 
and they told me that I should not--that I had two workers' 
compensation claims out--I had gotten hurt at work--and they 
said that, on January 22, 2007, that I had fell off a line 
deboning chicken and that they--I knew that it was another 
identity theft. They told me the name of the hospital that I 
allegedly went to.
    I went to Cook Foods, which is chicken-processing plant, 
and they argued with me and told me they had no way to believe 
I was who I said I was. So I took my marriage certificate 
because she was working in my maiden name. They arrested her 
that afternoon after the H.R. manager had told me that they 
didn't want the police involved, but I went to the police.
    The next month we went to a court date, and the lady 
couldn't speak English. She admitted through an interpreter 
that she worked there using my name and Social Security number 
for almost 2 years. She was charged with a misdemeanor and let 
go the same day.
    Two weeks after that, I received a letter from the IRS, and 
for the year of 2005 alone we owe $7,854 in back taxes. We have 
sent letters, statements. Finally, David Davis got involved and 
they--we had to pay for an appeal so they wouldn't garnish our 
wages even though we had proof that these people admitted they 
did it, and we had to end up paying another $100, but they have 
released us from 2005, but they said that we would have 2006 
and 2007.
    She took FMLA leave in my name. She had a baby at--not in 
my name, but she signed in the doctor's office in my name, but 
she went to the hospital in her Hispanic name.
    And I guess to sum up very quickly, I had the life that I 
always wanted, and now, because of this, I believe there is an 
argument that illegal immigrants have a right to come here, 
make a living, have a better life, but at what expense? I mean, 
I have worked hard my whole life to have what I wanted, and by 
adopting a little girl and trying to do the right thing, my 
husband and I have had to seek counseling, and, I mean, we are 
the--we are not who we were.
    I have to fight every day to prove who I am. I wonder how 
many of you are willing to give up all you have worked for. 
That option was not given to us. Our identity was taken. After 
extensive research, we now know we can never fully regain who 
we rightfully are. Every day is a constant fight for the rest 
of our lives to defend who we are. This is a fight that should 
never have begun, a tedious, day-to-day worry that has taken 
many joys, happy times and life, a life that we did all the 
correct things and we earned that is no longer ours.
    [The prepared statement of Mrs. Costner follows:]

                   Prepared Statement of Lora Costner

    Thank you for allowing me the opportunity to share my experience 
with you.
    In April of 2004 I had the life I always wanted. My husband and I, 
by no means wealthy, were comfortable. In one afternoon this was taken. 
Not at once, but a slow beginning to what is now a life filled with a 
day to day struggle trying to get back what we had.
    On April 12, 2004 we acquired custody of my biological niece. My 
now estranged sister was in a relationship with an illegal immigrant. 
It is our understanding that our personal identification was stolen 
from the adoption paperwork.
    After a family vacation in April of 2005 we received a letter 
stating that my husband's drivers license would be suspended, and there 
was a warrant for his arrest. We assumed there was an error. After 
investigating we found that someone was stopped at 3:30 AM in a nearby 
town speeding in Feb. 05'.
    The impersonator had no proof of insurance, and only a fake Social 
Security card with my husband's name and SS# on it. The speeding ticket 
had Jamey Dee Costner printed by the imposter. We were also told he 
could not speak English. Despite this he was allowed to go.
    When no one paid the ticket or appeared for the court date a letter 
was sent to inform us of the punishment we would face. The car he was 
driving was registered to my sister. However we had to pay an attorney 
to write the TN Department of Transportation advising we were the 
victims of identity theft.
    The Detective handling the case, Mr. Bob Ellis, contacted us and 
advised that the same illegal immigrant had worked at least two jobs in 
my husband's name. We were in shock, but foolishly believed these 
companies when they stated that they would inform the IRS. Despite our 
anger we managed to move on. Things were quiet for a while.
    Later in 2005 the illegal immigrant was jailed on a completely 
different charge. He had broken the window of my sisters car. My Mother 
informed me and I contacted the county he was arrested in. Taking more 
time off work my husband and I went to his court date to provide the 
info of the ID theft for the jobs and speeding ticket. The DA assured 
us this man would be deported and also we saw where he had been 
previously charged two separate times using the identity of other 
American Citizens. The entire process was unimaginable to me, how could 
this happen? If I am caught without proof of insurance my car would be 
towed, and the thought of using another persons identity for my own 
personal gain, well the thought alone baffles me. Yet we left finally 
feeling vindicated.
    Less than 30 days later we received a phone call around 3 AM. It 
was the illegal immigrant, Douglas Valdez. Laughing and in broken 
English he said ``They do nothing to me.'' He went on to tell my 
husband the make and model of our vehicles, named where we worked and 
our departure time.
    He then mentioned the name of Molly, our little girl. He rotated 
from Spanish to broken English, yet the threats were clear. We had told 
on him, and the Government had set him free. We would hang up, he would 
call back. I called the local police department and was advised to have 
our phone # changed. Never have I felt so betrayed. If only the phone # 
was the issue, we were being threatened, yet he was able to live by a 
different standard of rules than us. We kept our #. Periodically for 
the next few months he would call and we would take our phone off the 
hook. Every contact we made at any level of authority had seemed to 
feel compassion, but had no answers or help. We had to live our life 
and do the best to protect our family, the stress was the last thing 
needed, I was pregnant expecting in April of 2006.
    March 29, 2006 we had Mason. I took maternity leave and for a while 
everything was back on track. A couple of months after I returned to my 
job I began to clean up some of the reports that had piled up. I worked 
in sales in the lumber division of a wholesale hardware company. I'd 
been bitten on my head by a Brown Recluse spider. I was hospitalized 
for 10 days with encephalitis and a severe MRSA infection. This was in 
October of 2006. I was released to return to work in February of 2007. 
On Valentine's Day I made a call to the TN Department of Labor I had 
some questions before I returned to work. The lady I spoke with took my 
SS# and from the beginning of our conversation it was obvious we were 
not on the same page. She finally asked me why I was receiving benefits 
from Worker's Compensation when she had a record of me filing another 
claim on Jan. 22, 2007. At first I thought the system had transposed 
some #'s. However someone had filed a claim using my maiden name Lora 
Elizabeth Hale on Jan. 22, 2007. The customer service rep asked me if I 
had quote, ``Fell off the line and hurt my elbow de-boning chickens at 
Koch Foods''--my heart sank, I knew what we had believed was taken care 
of a year before had just grown. I imagine the distress in my voice 
made the lady believe me. She gave me the workers comp claim #, date, 
and the ER info where ``I'd'' gone to be treated. Still being naive I 
immediately called Koch Foods. I thought they would be as outraged as I 
was, however that is not what I received. After being transferred to 
several different people I spoke with Tim Steffin, the HR Director. He 
told me that he had no way of knowing if I was Lora Hale or if the 
person working there was Lora Hale. He did advise that she could not 
speak English and suggested I meet there and she and I could come in 
the office at the same time and try to get this straightened out. To 
say I was irate would take away from my anger. Realizing all of my 
identification had the name Lora Costner, I took my marriage 
certificate off the wall in the frame and went to Koch Foods. The HR 
Manager advised me that the lady using my identity would be there at 4 
PM and he would discuss this with her then. He also advised that he did 
not usually get the police involved in these matters. I realized this 
was not normal, however I told him, that was fine and left. I went 
straight to the police and filled out a report.
    A court date was set for the next month. My husband and I took more 
time off work, went to the court date. The lady, Elizabeth Bautista 
Velasco, could speak no English. Through an interpreter she admitted 
working there using the name Lora Elizabeth Hale for almost two years. 
She was charged with a misdemeanor, the DA told us he could try for 
more, but could not guarantee she would receive any more time. Our 
faith in the system was already depleted, and we were tired. So we 
agreed with the recommendation.
    Less than two weeks later we received a letter from the IRS. For 
the tax year of 2005 alone we owed $7,854.00. I sent letters to the IRS 
with copies of court records, letters from our place of employment (we 
had worked for the same company, I had been there for 12 years and 
Jamey for 8 years, both full time) Detective Bob Ellis from the Hamblen 
County Police Department wrote a letter on our behalf. For the IRS this 
was not enough. Everything we sent only made them ask for more. The 
taxes were also adding to the owed amount. In late September of 2007 we 
received a letter stating that we needed to send a money order to stop 
our wages from being garnished. We had fifteen days to send this money 
to place the garnishment on hold while an independent counsel would 
decide if we would be granted an appeal. During this time I faxed a 
letter to State Rep. Mr. Eddie Yokley and State Senator Bob Corker. Mr. 
Yokley called and spoke with my husband and said he had never dealt 
with a situation like this and would be glad to help but did not know 
what to do. Mr. Corker's office sent us a letter with a brochure on 
legal aide. I contacted legal aide and was advised we made too much 
money for assistance. We sent the money and were planning to hire an 
attorney when the IRS advised if our appeal request was granted.
    While waiting on the response to our appeal a local newspaper wrote 
an article in December of 2007. The article stated that a lady who 
lived in Maine was about to lose her disability due to wages she had 
not earned, yet the IRS claimed she had. The place of employment was 
Koch Foods in Morristown, TN. She had traveled thru the area two years 
prior and had her wallet stolen. I decided to call the reporter. I 
truly just wanted to advise this had happened to us. Mr. Robert Moore 
wrote an article about our situation. He also told me that Rep. David 
Davis was known for helping in this battle. The same day Mr. Davis' 
office faxed me a release form giving permission for him to speak to 
the IRS on our behalf.
    Mr. Davis' office was in contact with us, however we were still 
receiving letters from the IRS. Finally in March of 2008 we had to send 
$99.00 and received a release for the 2005 tax year.
    The IRS rep that I spoke with said that we should expect delinquent 
notices for 2006 & 2007. To date we have not, but it was 2 years before 
we received the notice for 2005.
    A local station did a report on our situation that appeared on the 
5PM channel 6 news. A reporter for the Knoxville News Sentinel then 
picked up the story and wrote an article. I have found that people are 
in shock that this can happen. Since the articles we have had calls 
with offers to help, but no one knows what to do. One of the most 
disturbing options was for us to change our names and SS#'s.
    The workers comp claim the illegal immigrant had in my name was 
paid by the insurance carrier for Koch Foods, however there is no 
record of anyone using my name or SS# at the local hospitals. I also 
have faxes from a local physicians office where a Hispanic lady checked 
into the office using the name Lora Hale and my DOB and SS#, yet the 
next day when she checked in the hospital for a procedure she had no 
SS# and used her Hispanic name. This was in March of 2006. The 
physician was on OBGYN, his office provided me with a fax that was sent 
to the HR department of Koch Foods stating the discrepancies. However 
she continued working there until I caught her. It is my belief she 
filed my name at the OBGYN to receive FMLA leave, and her Hispanic name 
at the hospital for free medical. And the same with the Comp claim. It 
will forever be on my record, but how did the insurance carrier pay a 
claim that was reported in one name and treated in another?
    I understand there is an argument that illegal immigrants are here 
only to make a living, a better life for their families. But I question 
at what expense? We have always worked hard. We were doing the right 
thing and taking in a little girl. The guilt I have since this was my 
biological sister has been devastating. My husband and I have sought 
counseling yet the damage has been done. We are a shell of the happy 
couple we once were.
    I will close by telling you that I think anyone who goes thru the 
proper channels to achieve the ``American Dream'' should be allowed. No 
matter what your dream is this Country has always given the opportunity 
to work hard and achieve it. I know this because at one time I was 
living my dream, however ``small,'' it was all I'd wished for.
    Now I have to fight every day to prove I am who I say. I wonder how 
many of you are willing to give up all you have worked for? That option 
was not given to us, our identity was taken. After extensive research 
we now know we can never fully regain who we rightfully are.
    Every day is a constant fight for the rest of our lives to defend 
who we are. This is a fight that should have never begun. A tedious day 
to day worry that has taken many joys, happy times, and life. A life 
that we did all the correct things, and we earned. But is no longer 
ours.

    Ms. Lofgren. Mrs. Costner, thank you for your testimony.
    We are going to recess this hearing now. We have a series 
of votes, and we will not be back before 3:15. So go get a cup 
of coffee, and we will ask some questions when we return.
    [Recess.]
    Ms. Lofgren. The Subcommittee will reconvene. Hopefully, 
the Ranking Member will be here shortly.
    First, apologies. We thought that we would be back at--by 
3:15, but we had more votes than we had anticipated, and we 
appreciate your patience and your willingness to stick with us 
on this.
    We have just a couple of questions that we will be able to 
pose to all of you.
    But before I do, let me just say to you, Mrs. Costner, what 
happened to you was really terrible and outrageous, and I don't 
think there is a person in the Congress who would defend what 
happened to you, and I appreciate that you were willing to come 
here and share your story. The individual that did that to you 
should have been prosecuted, and I think it is--you know, I 
don't see U.S. Attorneys are here now. I don't understand why 
they didn't do their job to protect you and your family, and I 
just wanted to say that before getting into the legal questions 
for the others.
    Let me ask you, Dr. Camayd, you have been a translator for 
a long time, and I read the statement that you made that was 
available publicly after this raid, and I was struck by, in 
your statement, how shocked you seemed to be by the procedures 
that you encountered here and that it was your judgment that 
these individuals had no idea what was going on.
    And you are, of course, the interpreter so you were in kind 
of the catbird seat to understand what people knew perhaps even 
better the lawyers because they couldn't actually talk directly 
to the defendants.
    Have you ever seen anything like this before in your 23 
years as a interpreter?
    Mr. Camayd-Freixas. Never.
    Ms. Lofgren. I think that is quite revealing.
    In your judgment, did these defendants understand the 
nature of these proceedings and the pleas that were--there was 
a lot of representation that the defense counsel had advised 
them and they knew all the immigration issues. Did you observe 
that?
    Mr. Camayd-Freixas. Well, there were almost 300 
individuals, and the level of understanding was different from 
one to the other. My determination is that the majority of them 
did not understand the charges or the rights that they were 
waiving. And I base that on several factors.
    First, it is unclear to what extent the numerous ethnic 
Mayans understood Spanish as a second language. Then there are 
vast cultural differences between Mexicans and Guatemalan rural 
cultures on the one hand and American legal culture on the 
other.
    And the most important factor is that, in my expert opinion 
as an educator, due to their lack of schooling and low rate of 
literacy, most of the defendants had a level of conceptual or 
abstract understanding equivalent to that of a third grader or 
less. So they clearly needed a lot more time, a lot more 
educating on a one-to-one basis on the part of the defense 
attorney to even come closer to understand what these things 
meant.
    In addition to that, they really were tuning it all out 
because the only thing--particularly the parents--the only 
thing that they cared about is how to get back to their 
families to look after their families so they were just 
listening to the time factor. ``Okay. If I do this, do I get 
home quicker,'' or ``If I do that.''
    Particularly troubling was the waiver of the right to be 
indicted by a grand jury on felony charges. These were all 
felony charges. They basically at that point had no knowledge 
of the plea agreement or the plea offer that the government was 
going to make so they basically were given false hopes that, if 
they waived the right to a grand jury indictment, they would go 
home faster. So they did.
    Ms. Lofgren. Let me ask you this. We had testimony that 
there were--the defense lawyers had been completely schooled on 
immigration law--and that there were immigration lawyers in the 
facility. Did you observe that?
    Mr. Camayd-Freixas. I am sorry. I didn't----
    Ms. Lofgren. That the defense counsel had been instructed 
in immigration law and that there were immigration lawyers 
there at every stage helping the defendants understand. Did you 
see that?
    Mr. Camayd-Freixas. No. I didn't see any immigration 
attorneys there. There were actually very few attorneys each 
day because, even though 18 defense attorneys participated, 
they would come in 3, 4, 5 each day. And I didn't see any 
immigration attorney.
    I also understood that the official policy was that these 
were criminal cases, not immigration cases..
    Ms. Lofgren. Right.
    Mr. Camayd-Freixas [continuing]. Therefore----
    Ms. Lofgren. But they had implications once you plead 
guilty to this crime. Even if you had another benefit available 
to you under existing immigration law, that would then be 
foreclosed.
    Mr. Camayd-Freixas. Well, I did observe that some attorneys 
were able to call on immigration law colleagues----
    Ms. Lofgren. Okay.
    Mr. Camayd-Freixas [continuing]. But the issues were so 
complicated that sometimes they had to consult with two and 
three----
    Ms. Lofgren. Right.
    Mr. Camayd-Freixas [continuing]. Different lawyers, and 
they would get different indications.
    Ms. Lofgren. Let me ask the two law professors, and I am 
going to read from the affidavit that was filed in support of 
the application for the search warrant, and it is point 85. I 
will summarize. The first part isn't really that material.
    ``A search was conducted by ICE agents in the Accurate 
Database''--which, as we know, is the private-sector database--
it is highly accurate--``for the individuals' Social Security 
numbers listed in second quarter 2007 payroll reports. This 
search revealed that approximately 878 out of 1,116, or 78.6 
percent, of the Social Security numbers input into Accurate 
either did not appear to be associated with the person assigned 
to that Social Security number, or the number did not reveal 
any person associated with the number.''
    What were hearing here from the government's own affidavit 
is that 78--well, let us say almost 79 percent of the 
individuals didn't have somebody else's Social Security number, 
they had a made-up number.
    How is that consistent, in your judgment, with the 
necessity to base a prosecution on evidence that the 
prosecutor's burden to have the elements of the crime known and 
present before proceeding with a prosecution. Could you comment 
briefly on that?
    Mr. Leopold. Well, that statistic, Madam Chairwoman, is 
very troubling. Eighty percent of these people apparently did 
not have--the Social Security number didn't correspond to a 
real person. That draws into the real question, the whole use 
of the identity theft as a charge and really brings into 
question the Social Security charges.
    I tell you, I have sat on the CJA panel Northern District 
of Ohio now for 10 years that handles criminal cases in 
addition to my immigration practice. I would love an 
opportunity to cross-examine the affiant here about that 
because what he seems to say in this paragraph at the end is, 
``Well, this evidence didn't really add up, but so what. I am 
an expert. Believe me.'' So it is very troubling.
    Mr. Rigg. I concur with Mr. Leopold's analysis there. The 
two parts of that paragraph seem to be inconsistent, but, 
again, that is something that would have been submitted to a 
judge. But that is the type of information you would want a 
preliminary hearing on.
    Ms. Lofgren. Well, if I may time is running out, but it 
just seems to me that the prosecutor's obligation is first to 
do justice, not to just to get convictions. It is to, as an 
officer of the court, to make sure that justice is done. That 
is the whole system. And if the elements of the crime, by the 
government's own attestation under oath, aren't there, how can 
the prosecutors, consistent with their ethical obligations, 
proceed? I just--I have a concern about that.
    My time has expired so I am going to turn to the Ranking 
Member for his 5 minutes of questions.
    Mr. King. Thank you, Madam Chair.
    I am going to turn first to Dr. Camayd, and I don't see it 
in your written testimony, but what I think I heard you say was 
that the subjects of this raid endured cruel and unusual 
punishment. Did I hear that correctly?
    Mr. Camayd-Freixas. Yes, sir.
    Mr. King. And I just can't help but reflect that the 
Supreme Court has conferred habeas rights on enemy combatants 
and also conferred Geneva Convention status to enemy 
combatants, and I have--I am looking at this as being precisely 
language from the Eighth Amendment of the Constitution, cruel 
and unusual punishment. Were you advocating that those 
defendants then would bring a case to have their constitutional 
rights protected?
    Mr. Camayd-Freixas. No, sir. I don't have an opinion about 
that.
    As an interpreter, part of my job is to interpret the 
meaning of what people are saying, not just the words. In order 
to do that, I have to put myself in the position of the 
individuals I am interpreting for, whether they are attorneys 
or witnesses or defendants. And when--I did that for 14 hours 
during the jail interviews on a Friday and Sunday, and I was 
able to put myself in each individual situation, and I was 
talking specifically about the parents who were worried sick 
about their children----
    Mr. King. Okay.
    Mr. Camayd-Freixas [continuing]. And their families and 
having to basically spend the next 5 months at every moment of 
their waking hours just consumed with this worry.
    Mr. King. And--and I understand that was part of your 
earlier testimony, and I agree with you that a good interpreter 
interprets not just the words, but voice inflection, words 
unsaid, body language--all those things together. And I read 
the words in your testimony too and some of them are--they are 
inflammatory to me. And so I will just leave that there rather 
than belabor that point.
    And I would turn then--first, I wanted to make a little 
comment about Mr. Rigg's testimony.
    First, I think it is the most reasonable of the majority's 
witnesses here. And you made two points: One, that the 
compression of time imposed limits on attorneys that may have 
put the defendants' rights at risk. I think that is a valid 
point, and I don't know if it is--I don't necessarily agree or 
disagree with it. I just think it is a good point to have 
raised. Then the--you referred to as an ambush--I think a 
surprise--to the attorneys who were drawn into this process. 
That is how I interpreted it.
    I just wanted to say to you that, being on the Iowa Supreme 
Court Advisory Committee, I have a certain amount of envy that 
I am not on that advisory committee.
    So instead of asking you a question, I would just take a 
little license here, and in the time that is remaining, I 
really want to turn to Mrs. Costner and say I recognize how 
difficult this was for you to be here today. I appreciate the 
Chairman's cooperation in that, and I know that you had to 
overcome a fair amount of intimidation just from the very fact 
of this being Congress to come here and testify, and I think 
the way that you went through your testimony and got to the end 
of it and actually compressed it within the 5 minutes, I want 
to thank you. And I know there are Members on both sides--the 
Democrats and Republicans--that know how difficult this was. 
And that is the way citizens serve this country. You have done 
that.
    But I would ask you, are you finished? Do you know that the 
identity theft is over, and how would you know if it was?
    Mrs. Costner. I was told that we would never know, that, 
unless we changed our names and Social Security numbers, that 
they would always be out there. And the IRS told me that we 
would get tax notices for 2006 and 2007. I just don't know when 
they will be here.
    Mr. King. Do you know the initial perpetrator--do you know 
where he is now in the--in the legal process?
    Mrs. Costner. They let him go. They said that it was not 
illegal to use someone's name to obtain employment.
    Mr. King. But he was he never ordered deported from the 
United States?
    Mrs. Costner. That is what the D.A. told us was going to 
happen when we left court, but then they----
    Mr. King. But it didn't happen. And we are very--we are 
very familiar with those circumstances by which we are short of 
law enforcement personnel in a lot of ways, and I just say as a 
matter of--statistically--two of my staff people have been hit 
by drivers who were illegal, and in each case law enforcement 
took the information, took the Matricular Consular card number, 
they knew very well it wouldn't hit a positive hit on the 
database, turned them loose. And even though, when I send my 
chief of staff to town to try to get enforcement, we can't get 
it even in my own staff.
    So I just--I thank all the witnesses--I know we have strong 
emotional feelings, and as emotions come out in your testimony, 
Dr. Camayd, and I actually think some of that was plenty. And I 
appreciate the professionalism that comes here when it arrives, 
and I know how it was most difficult for Mrs. Costner, and, 
again, I thank you for your testimony especially.
    Ms. Lofgren. The gentleman's time has expired.
    I would turn now to the gentleman from Illinois Mr. 
Gutierrez.
    Mr. Gutierrez. Thank you very much.
    Let me share with Mrs. Costner thank you for coming and 
bringing your testimony before this Committee. I think it is 
very valuable information and testimony for us. We need to do 
more about identity theft, and I thank you for your testimony. 
I think it will help us here. At least I am very hopeful it 
will help us here.
    Let me go to Mr. Camayd. We heard Ms. Costner's testimony 
about identity theft. It sounds to me like the gentleman who 
stole her identity committed aggravated identity theft. Would 
that be your opinion?
    Mr. Camayd-Freixas. Absolutely.
    Mr. Gutierrez. And I just want to see how that relates to 
your experience in being an interpreter and what the people 
were charged. Was there any evidence of this kind of critical 
criminal intent--as using someone's identity, Social Security 
number--and causing the kind of harm that was caused to Mrs. 
Costner and her husband?
    Mr. Camayd-Freixas. Well, I expressed to Mrs. Costner how 
sorry I was for what happened to her during the break. And I 
want her to know, for her peace of mind, that the individuals 
that I saw in this case in Iowa were just hard-working people 
and, in fact, only 5 out of 389--had any kind of criminal 
record.
    One of the issues that bothered me about the case in Iowa 
is that individual circumstances of each case were not 
considered. And I think that, when we look at the very 
unfortunate case of Mrs. Costner, as well as issues as to 
whether illegal workers are good or bad for the country, I 
think it--I keep going back to that situation and saying, 
``Well, how can we apply these broad issues to the individual 
cases if we don't know the facts of each case?''
    Mr. Gutierrez. And so of the people that you helped 
interpret for, there was no evidence--in your testimony you 
seem to really stress the difference between the aggravated 
identity theft and the use--the improper use of a Social 
Security card. Would you--what is the difference?
    Mr. Camayd-Freixas. Well, aggravated identity theft was a 
charge created by an act of Congress in 1998. For almost 10 
years, it had been used for its proper purpose and meaning. And 
it was only until the middle of 2007 that it began to be used 
in immigration cases, basically in presenting false documents 
to obtain employment. So it seemed like it was a way of testing 
the waters until in Postville it was applied on a large scale.
    But the Department of Justice Web site has a very good page 
on identity theft. It explains what it is. It gives several 
examples. The examples it gives pertain to people who have 
stolen identity to charge sometimes hundreds of thousands of 
dollars under somebody else's name, that type of----
    Mr. Gutierrez [continuing]. That is to use somebody's 
identity to commit a crime?
    Mr. Camayd-Freixas. That is correct.
    And also it remits you to the actual statute, and the 
language of the statute is that identity theft is using 
somebody else's identity to commit a crime under the false 
pretense of being another person.
    Mr. Gutierrez. Let me just follow up because I would like 
to ask Mr. Leopold.
    So when I read, ``If you plead guilty to the charge of 
knowingly using a false Social Security number, the government 
will withdraw the heavier charge of aggravated identity 
theft''--and this is from the interpreted--this was the plea 
agreement, which the assistant general attorney had a little 
bit of problem but not much problem with. I mean, this is 
basically what the interpreters are saying, that the defense 
counsel was giving to their client.
    What is wrong with that? What in essence is there anything 
wrong with an attorney--with a U.S. attorney or the Federal 
Government accusing somebody of something and then offering 
them a lesser plea? What is wrong in this case?
    Mr. Leopold. Well, what is wrong with it is is apparently 
there was very little evidence to convict them even on the 
lesser plea. And what they did was they compressed this whole 
situation by use of what is otherwise known as an exploding 
plea agreement, which was 7 days long or it ended. So that 
compressed timeframe, coupled with the fact that most of these 
people--or all of them--their real intent was really to get out 
and work and feed their families again, and their real--this 
whole situation banked on the fact that the workers really 
didn't understand the nature of the charges against them.
    What was wrong was to use that kind of leverage in this 
particular case and to try to criminalize--successfully 
criminalize as many undocumented workers as they did when, in 
fact, all they were trying to do was feed their families.
    Mr. Gutierrez. And one last question. If it is an 
immigration case, would you take any lawyer for a--is there a 
particular reason you want an immigration lawyer to deal with 
an immigration case?
    Mr. Leopold. Well, look, absolutely, Congressman. The 
travesty here is that these pleas that were given could not 
possibly have been given knowingly because there was not 
adequate advice of immigration counsel. And in a criminal case 
involving a noncitizen, part and parcel of the defense is an 
analysis of the immigration consequences.
    In Dr. Camayd's essay, there was a discussion of a man from 
Guatemala, and as the Chairwoman mentioned, Guatemala has a 
rather checkered history with human rights violations. Many of 
these farmers were from Guatemala. There were probably asylum 
claims in there. There were probably people that needed 
protection. All they needed to do--all the U.S. Attorney's 
Office needed to do and should have done and failed to do was 
ensure that immigration advice--competent, thorough immigration 
advice was available to all of these detainees.
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman from California, Mr. Lungren, is recognized.
    Mr. Lungren. Well, I am sorry I missed a good portion of 
this while I was tending to other things, but I guess I have 
been here long enough to see what the hearing is all about. ICE 
screwed up. Labor Department screwed up. U.S. Attorney's 
screwed up. Court screwed up. There is no criminality here. 
People like Mrs. Costner, who have their identity stolen and 
suffer the consequences, we apologize to you, but, you know, no 
one really did anything wrong here. They just took your 
identity.
    I have been in this place 14 out of the last 30 years 
working on immigration issues. I thought that we solved this 
problem in 1986 when we had the largest, most generous 
legalization in the history of this country, which, by the way, 
was not very particularized. There wasn't much you had to prove 
to them and we managed to legalize millions of people, but we 
did not enforce the law.
    And people think the comments here about the Federal 
employees who worked on this are not going to deter them from 
doing their job, I think they are sadly mistaken. We have been 
told that they were cowboys, that they were rogues, that they 
had no consideration for the rights of anybody. Now, maybe that 
is true. Maybe this was wholesale. Maybe every single ICE 
officer disrespected the rights of everybody else. Maybe the 
U.S. Attorney's Office did it completely. Maybe the Labor 
Department was involved in some sort of grand conspiracy with 
Department of Homeland Security. But, frankly, I find that a 
whole lot hard to swallow.
    Ms. Costner, when your identity was lost and taken by 
somebody else, were you concerned whether the person was doing 
it for a reason they considered to be good? Would that have 
made a difference in terms of the implications with you, the 
impact on you?
    Mrs. Costner. No. When I went to court with the lady, I 
actually was in a position to where I felt sorry for her, but I 
still owed $8,000 and had lost a big part of my life.
    Mr. Lungren. This upside----
    Mrs. Costner. I mean, I am still----
    Mr. Lungren. Did this turn your life upside down?
    Mrs. Costner. Yes. And----
    Mr. Lungren. So it is not a victimless crime? I mean, you 
were a victim in this?
    Mrs. Costner. And will be the rest of my life.
    Mr. Lungren. But what we hear in Congress mostly is to 
blame the Social Security system because they didn't do a good 
enough job in it and because we don't check well enough. I 
mean, at some point in time, I hope people understand folks 
have to take responsibilities for their action. And it is 
illegal to come into this country when you don't have a basis 
for coming to this country. It is illegal to take a job when 
you don't have a right to have a job.
    And I will continue to talk about this until something is 
changed. We have an unbelievable crisis in this country, a 
scandal in this country with the unemployment among young 
African-Americans age 17 to 35. I dealt with it when I was 
attorney general. We were dealing with the high rate of 
incarceration of that group, and one of the concerns was where 
are the jobs? And I hope we will not forget about that. But I 
hear very little about that.
    And, you know, when you are trying to balance the scales of 
justice, we ought to treat people fairly, they ought to have 
the right to have a fair hearing, they ought to have the right 
to have lawyers, but let us also remember the other side of the 
balance here. There is people like Ms. Costner who----
    Mrs. Costner. Had to pay for my lawyers.
    Mr. Lungren. And your life has been turned upside down.
    Mrs. Costner. Yes. I mean, it is----
    Mr. Lungren. Now, maybe no one intended that, but that is 
what happens when people steal identity here, and it is almost 
as if we are saying----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren [continuing]. It is not that big a deal.
    I will be happy to yield, but, I mean, I have sat here and 
heard questions while I was here.
    Ms. Lofgren. I don't think you had arrived yet when all of 
us expressed concern about----
    Mrs. Costner. Correct.
    Ms. Lofgren [continuing]. Mrs. Costner's----
    Mr. Lungren. Oh, I understand that.
    Ms. Lofgren [continuing]. Situation and also expressed the 
view that the perpetrator should have been prosecuted and 
deported.
    But here is--and I thank the gentleman for yielding--the 
affidavit filed by the government based on their search says 
that 80 percent of the individuals didn't take somebody's 
Social Security--it was a number that--it wasn't somebody's 
Social Security number. It was a made-up number not attached to 
any real person. And I think that is one of the issues that at 
least is of concern here is there was no victim because there 
was nobody who had the number.
    And I thank the gentleman for yielding.
    Mr. Lungren. I appreciate that.
    You know, we have a schizophrenic country. On the one hand, 
we want to deal with illegal immigration and enforce the law. 
On the other hand, we want to have people here to take jobs 
that ``Americans won't take.'' And I think there is an area in 
which that applies, and that is why I have been working for 30 
years to get a temporary worker program and to get some legal 
means to do it.
    It is my observation the American people will not allow us 
to do that until they believe we have the enforcement side in 
control. And when they see the impact of phony Social Security 
cards or stolen identity, that does not give them great 
confidence that we have this under control. And my fear is that 
we will never get to the point of having that temporary worker 
program, having those means by which we can determine how many 
people should come here, take them out of the shadows of 
illegality so they have the protections of the law unless we 
take enforcement seriously.
    And my bottom-line concern is that the hearing seemed to be 
directed at an agency that screwed up. And I suppose we might 
find a raid where they actually did things right. And maybe 
we----
    Ms. Lofgren. We will keep looking.
    Mr. Lungren. Well, I know. We will keep looking, but that 
is very encouraging to the people at ICE as we have been told 
that we have great respect for them and the work they do and 
then we just constantly tell them they have done a terrible 
job.
    If I sound frustrated, I am frustrated because I have 
worked for 30 years to try and get a solution here, and one of 
the results of not having a solution is Ms. Costner, is what 
you had to go through, and unless we get a grip on this, many 
others are going to go through that. And we are all going to 
invite you here, and we are all going to apologize to you, say 
we are sorry it happened to you----
    Mrs. Costner. Pass around the hat.
    Mr. Lungren. Yes, we will pass around the hat. But we won't 
do anything about it. So I will add my apology too, but the 
best apology we could make to you is when we actually pass a 
law that deals with this and puts it on the right track.
    Thank you very much.
    Ms. Lofgren. The gentleman's time has expired.
    I recognize the gentlelady from Texas Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Madam Chairwoman, again.
    I associate myself with the latter words of my good friend 
from California. We do have to pass a law, Ms. Costner, and I 
would start with you simply to say that I am outraged about 
what happened to you. As I looked over your very eloquent 
statement, this is, I think, the thrust of my comments. I want 
the bad guys, the ones who are stalking you, who are criminally 
calling you up on the phone and ridiculing you. I want the guy 
who speeded and got a speeding ticket to be deported. And the 
outrage is where was--why was there a disconnect? The local law 
enforcement could have taken the gentleman in and called the 
Federal law enforcement right there. That is the kind of 
criminal bad guy that you want to be gone. Obviously, we would 
like a lot of these incidences to not occur.
    So my question, I know that you are not an expert in 
Federal law--and I see this other individual who you felt 
sympathy for--but there was a purposeful use of your 
identification, and I don't want to stereotype a profile, but I 
would think your name is slightly different. Maybe they 
perceived you to be--this individual to certainly have the 
ability to have maybe a name as yours. But it might have been 
an indicator to ask a few more questions.
    And so I think obviously and conspicuously on the face of 
your facts we could have helped you. And I apologize for the 
lack of coordination. We have advocated that there should be 
coordination. We don't think local law enforcement or Federal 
law enforcement. But if this person was poised to be deported 
for conspicuous, reckless criminal actions--I am talking about 
the first individual, who seemingly began to stalk you--that 
should have occurred.
    And I just simply ask you the question would you like to 
see, as we look to try to fix this immigration system, that our 
law enforcement goes after those who are poised or are already 
in the act of criminal acts that already violate the criminal 
laws? If you were doing this, that would be against the law. 
Should we be putting resources there to get those kind of 
people?
    Mrs. Costner. Yes. But I would like to see them here going 
through the channels to be here legally so it is not a question 
and they don't have to steal an identity to work to feed their 
families.
    Ms. Jackson Lee. Well, you are very gracious, and I just 
want to apologize to you and thank you for your testimony----
    Mrs. Costner. Thank you.
    Ms. Jackson Lee [continuing]. And for being here, and we 
will certainly look at some of the fractures in the system that 
caused this individual--the first individual that took your 
husband's ID, of course--to treat you in that manner, and I 
thank you for your testimony.
    Let me go to Mr. Leopold. I went down this line of 
reasoning with the representative for the DOJ and the ICE, 
which is to suggest that there may have been some thinking as 
relates to putting forward these criminal charges knowing that 
criminal charges placed on individuals who, as you had 
indicated, come from places like Guatemala may have been simply 
farmers who were trying to come here for economic opportunity, 
albeit that they were undocumented, that placing them in this 
criminal predicament--in this criminal charge predicament would 
have then cast them as felons and made their journey back home 
more difficult or their journey and their ability to return 
more difficult.
    What do you think about that kind of thinking?
    Mr. Leopold. Well, the criminalization of undocumented 
farmers really goes nowhere. Yes, it does brand them as felons. 
And you are correct, once somebody is branded as a felon, it 
creates all kinds of problems later on with respect to 
admissibility to the United States. Not everybody who is 
deportable who is a felon, but many are. Many people who are 
felons, it is impossible to be admitted. There is no 10-year 
bar. I think I heard the representative from the Department of 
Justice talk about a 10-year limit. I don't know of any 10-year 
limit. It is a lifetime limit.
    Ms. Jackson Lee. It is a lifetime.
    Mr. Leopold. It is a lifetime limit.
    Ms. Jackson Lee. That is right.
    Mr. Leopold. You are correct. And absent a waiver--and even 
then, you have to show a qualifying relative--it becomes 
extremely, extremely complicated.
    Ms. Jackson Lee. I don't want to cut you off, but my time, 
and I would like the other three gentlemen.
    I don't want us to get tainted as unpatriotic because we 
are arguing for a sense of balance, but I need some help. I 
know that you have been engaged in this. The use of resources 
used like this raid, help me find a more effective pathway. I 
have looked at the numbers: 104 raid teams and we look to get 
4,000 in 2008, immigration lawyers being utilized, other 
resources. Is this an effective tool for enforcing immigration 
laws or putting the system right-side up?
    You want to start Mr. Rigg?
    Mr. Rigg. Thank you. I don't think it is the most effective 
tool. You can make an argument that, yes, we achieved what we 
set out to do if you are ICE if we removed individuals who were 
undocumented, we are getting them out of the country, we have 
now prosecuted them, and you can claim some success with that.
    Was the overall process a fair one? That is where I have 
real problems. And the purpose of the criminal justice system 
is to make sure that we get at the truth and that justice is in 
fact done. And critical resources have to be devoted, not only 
to ICE and to the Department of Justice, and they also have to 
be devoted to the Judiciary and the Criminal Defense Bar, and 
everybody seems to overlook the Criminal Defense Bar and give 
them, I think, the opportunity to have some input into this and 
maybe make suggestions that might actually serve ICE's purpose 
better.
    Ms. Jackson Lee. Mr. Leopold, could you quickly just answer 
the effective use of resources?
    Mr. Leopold. The most effective use of resources, 
Congresswoman, would be to fix the broken immigration system. 
As Congressman Lungren pointed out, it is broken, and it does 
need to be fixed. And this is a symptom, the terrible story 
that we hear from Mrs. Costner, other stories. This is the 
symptom of a broken--badly broken immigration system. And, 
frankly, Congress needs to roll up its sleeves, get down to the 
nitty gritty of fixing the system. It is not going to happen 
overnight, and it is going to take a lot of hard work. And, 
frankly, I implore Congress to do this about it.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank the distinguished Chairwoman, and 
I will just say, Chairwoman, in closing my sentence, I think we 
need to ask the president of the United States, which has to be 
a partner in signing a bill, and I personally ask him if he 
would take in these waning months leadership on helping turn 
this system right-side up.
    I yield back.
    Thank you.
    Ms. Lofgren. Thank you.
    The gentlelady from California Ms. Sanchez is recognized 
for 5 minutes.
    Ms. Sanchez. Thank you to the Chairwoman for holding this 
hearing because I think, although it has been a long day, it 
highlights several issues that I think speak to the fundamental 
nature of what are we as a democracy.
    And while I don't want to diminish the terrible 
circumstances that Ms. Costner's gone through, in listening 
to--in reading through some of the testimony, it is clear that 
the workers who were using Social Security numbers that were 
not assigned to another individual, their intent was not to 
wipe out somebody's bank account, charge up thousands of 
dollars on their credit cards or steal their pension, it was 
simply to work.
    And I think in all the panels we have heard at some point 
or another people say we need to fix a broken immigration 
system; otherwise, these types of things are going to continue 
to occur. And there will be criminals, like the criminal who 
stole Ms. Costner's identification, who will go unpunished. But 
there will also be hard-working people who are just trying to 
feed their families or trying to make a better life for 
themselves or escape repressive regimes in their home countries 
of origin who are also going to get caught up in unfortunate 
circumstances because I consider some of their circumstances 
very unfortunate as well.
    What particularly concerns me about this raid is the 
question of due process rights, and much has been made about 
the fact that the taxpayers pay for it. Well, you now what? It 
is a constitutional guarantee that, if you cannot afford an 
attorney and you are being charged with a crime in this 
country, one is provided for you. And yet, you know, people 
seem to make light of the fact that, hey, as long as you are 
given an attorney, what are you complaining about? Well, if you 
don't have a reasonable way to participate in your own defense, 
if you don't have a understanding, a basic grasp of what you 
are being charged with, how can you really make informed 
decisions in a criminal process? And the compressed timeframe, 
I think, only underscores the egregiousness of the due process 
that was not afforded to many of these--many of these workers.
    In my Subcommittee on Commercial and Administrative Law, we 
have heard testimony under Operation Streamline and in 
Postville defense lawyers were being assigned up to a dozen 
clients at once and given less 30 minutes to, number one, meet 
and educate the client themselves; number two, decide whether 
the client was competent to stand trial; number three, 
determine whether there is a defense of citizenship or duress, 
a lack of intent or a need for pretrial motions to suppress 
evidence or statements due to constitutional violations; and, 
number four, learn personal information which might mitigate a 
sentence and a whole host of other things. Thirty minutes was 
granted to each of these people.
    I want to ask Mr. Leopold and Mr. Rigg, in your 
professional opinion, can any defense attorney adequately and 
ethically execute their duties in less than 30 minutes to a 
client, and especially in a case where they have to interpret 
with somebody who doesn't speak the language? Does 30 minutes 
seem like a sufficient amount of time?
    Mr. Leopold. Well, you know, I can speak from experience as 
a CJA panel attorney myself that 30 minutes is enough time to 
shake the client's hand and get to know their name. Of course, 
not, Congresswoman. Of course, not.
    You know, and couple that with this compressed plea 
agreement--and by the way, I don't know--nobody has ever 
explained the representative from the Department of Justice or 
the U.S. attorney--nobody has ever explained why did they have 
to impose this 7-day deadline on the plea agreement? Why?
    There was absolutely no reason to do that other than to 
pressurize, not only the panel attorneys--the CJA panel 
attorneys--who, by the way, did a valiant job out there in 
Iowa--but to pressurize the clients into taking these pleas. I 
know of no situation in my experience--and I have asked other 
attorneys--where this type of plea agreement was used.
    Ms. Sanchez. Mr. Rigg?
    Mr. Rigg. I am also the director of the Criminal Defense 
Program, and one of the things I do is I supervise students in 
criminal cases. I would fail any student who took 30 minutes to 
advise a client on a misdemeanor charge to plead or not to 
plead, much less do the analysis that you have described. 
Essentially what you have described is a violation of every 
standard of the ABA standards of a prosecution function and 
defense function.
    Ms. Sanchez. Thank you. I appreciate your honest answers to 
that.
    Mr. Camayd--did I pronounce that correctly?
    Mr. Camayd-Freixas. Camayd.
    Ms. Sanchez. Camayd.
    To the best of your knowledge, did any individual who you 
interpreted for refuse to answer questions during ICE's 
processing?
    Mr. Camayd-Freixas. I was not present during that 
questioning session so I wouldn't be able to answer that.
    Ms. Sanchez. Okay. So you don't know if any during 
processing asked for an attorney at that point either?
    Mr. Camayd-Freixas. I am sorry?
    Ms. Sanchez. If any individual during the processing asked 
for an attorney?
    Mr. Camayd-Freixas. I do not know that.
    Ms. Sanchez. Okay.
    I just want to ask one final question, and I would beg the 
Chair's indulgence as I did not get a chance to question any of 
the previous panels.
    Clearly, there seems to be a problem with this particular 
instance in terms of whether people had a knowing and a full 
understanding of what they were doing before they entered their 
plea agreements.
    I want to know from our panelists--Mr. Leopold and Mr. 
Rigg--what is the potential harm to the American system of 
justice when we allow criminal prosecutions to go forward in 
this manner? I mean, if it can happen here, can there not be 
other instances in which it can happen? And then what does that 
do fundamentally to the American system of justice?
    Mr. Leopold. Well, Congresswoman Sanchez, if you could 
imagine for a second how we would react if we heard of a group 
of Americans overseas in a foreign country being rounded up 
into a cattle pen and prosecuted in 7 days. I mean, the whole 
spectacle itself demeans our system of justice and stands as a 
stain upon this system which we all--we all cherish.
    These types of precedents in terms of the type of 
prosecution as it was done out there is a terrible precedent, a 
terrible way to handle justice, and I would respectfully submit 
that it shouldn't ever happen again.
    Ms. Sanchez. Thank you.
    Mr. Rigg?
    Mr. Rigg. I think anytime you value high turnover and 
economy of justice, that is exactly what you get, that you 
don't get justice, and you probably are going to violate due 
process in doing so. And anytime the American system--and every 
day the American system is put on trial, and are we getting it 
right, and it is rightfully tested by the careful arguments 
between defense counsel and prosecutors with a neutral and 
detached judge. And when you take any part of that component 
away, you are guaranteeing at some level you are going to 
create a problem.
    Ms. Sanchez. All right. One final question, and I can't 
resist asking this because Mr. Leopold said, ``If you could 
imagine this happening to Americans overseas.''
    What if U.S. citizens here in the United States--here in 
the United States were rounded up and arraigned 10 at a time 
and processed and given plea agreements? What can you imagine 
would happen here if American citizens were treated like that 
under our system of justice?
    Mr. Leopold. Well----
    Ms. Sanchez. Because it seems to me that there is an 
inherent bias if they say, ``Well, it is fine because, you know 
what? These people don't matter anyway. They don't really 
count.''
    Mr. Leopold. Well, I think that is an astute point. I think 
that we wouldn't see that kind of roundup of U.S. citizens.
    You know, in the panel cases that I have done in the 
Northern District of Ohio involving big cases with a lot of 
defendants, it is always one lawyer to one client. I have never 
seen 17 clients to one lawyer, 15 minutes or 30 minutes to 
speak to the client.
    You know, in this case--this is the immigration law, this 
huge book. I don't know how you can explain this in 30 minutes 
to somebody, let alone the enormous consequences of taking a 
plea.
    Ms. Sanchez. Any further comment from any other panelists 
on that?
    Ms. Lofgren. The gentlelady is granted one additional 
minute for an answer----
    Ms. Sanchez. Thank you.
    Ms. Lofgren [continuing]. And then we will be----
    Ms. Sanchez. I will yield----
    Ms. Lofgren [continuing]. Adjourning the hearing.
    Mr. Camayd-Freixas. Yes. I want to make clear that I 
believe everybody here is in favor of enforcement but done the 
right way. The consequences of not doing it the right way, we 
don't have to look too far to find them, and Mrs. Costner's 
case is a case in point.
    Related to this case, I heard of situations in which the 
authorities were called about an individual similar to in the 
case of Ms. Costner's, and they are response was, ``You have 
only one guy?'' They said, ``No. We can't take care of it.'' In 
this case, obviously, there were 700 warrants so this is what 
attracted the attention of law enforcement.
    I also wanted to point out that I want to dispel the myth 
that the target was the employer. As a matter of fact, one of 
the three charges, which was very much related to the Social 
Security fraud charge, was use or possession of false identity 
document with intent to deceive. Now, that phrase ``with intent 
to deceive'' isn't really with intent to deceive the employer. 
So that held the employer harmless. Not only that, but that 
made it a crime of moral turpitude, which renders the convict 
ineligible to even apply for immigration relief.
    Ms. Sanchez. Thank you.
    I will just--before I yield back my time--will make one 
last comment, and that is I find it interesting that, when we 
talk tough about getting tough on illegal immigration, we 
always talk about criminalizing the immigrant. We never talk 
about criminalizing the employer. And I think that, if we made 
it a criminal penalty to knowingly hire somebody who was 
undocumented, I think a large part of our immigration problem 
might be solved. But the employers are typically only let off 
with a slap on the wrist or a fine, if that.
    And with that I will yield back the balance of my time.
    Ms. Lofgren. The gentlelady's time has expired.
    The Ranking Member has asked to be recognized for a brief 
comment.
    Mr. King. Thank you, Madam Chair.
    This Committee is poised to adjourn with a misconception 
hanging in the air, and I would direct the attention to page 10 
of Ms. Rhodes's testimony--the U.S. attorney from Alabama--who 
in her testimony says, ``Nearly all of the defendants sentenced 
to time served had admitted using identification information 
that belonged to other people.''
    And the specific of it are this: 233 are false use of 
identification after admitting the use of an actual person's 
identity, 30 for false use of Social Security number after 
admitting the use of an actual person's identity and 2 for 
false identification to obtain employment after admitting an 
actual person's identity.
    So the idea that it was a minority, rather than majority, 
almost all--nearly all defendants used somebody else's 
identity, somebody like Mrs. Costner.
    Thank you, and I yield back.
    Ms. Lofgren. Gentleman yields back.
    I will just note that this--the Ranking Member's comment 
really proved the point of the lack of due process because 
there was an admission to something that was not true. The 
evidence, which is found on page--on point 85 of the 
application for the search warrant, shows that the evidence is 
that 80 percent of these people had a number that didn't belong 
to anybody, and so really it does got to the due process 
question of whether these individuals were--pled guilty to 
something that there was no factual basis for.
    Mr. Lungren. Would the Chairlady yield on that?
    Ms. Lofgren. I certainly would.
    Mr. Lungren. I believe that affidavit deals with the over 
700 people that they were talking about in the first instance, 
about half of which, I believe, were not at the site at the 
time that the exercise by ICE took place, and the number that 
the Ranking Member was talking about was the number that 
actually pled, which is a much smaller number than the overall 
700.
    Ms. Lofgren. I concede the gentleman's point. The further 
point being that, since there was no trial, there was no facts 
gathering, the only evidence we had was this, and there was no 
way to sort the individuals who, in ignorance, pled guilty from 
those who--the 80 percent that did not have a number.
    I am not going to belabor this point because we have been 
here all day. I do want to thank all of the witnesses. People 
don't realize that the witnesses are volunteers for our country 
come here of their own free will to share information, to 
inform the Congress, hopefully, to improve our country.
    I will say that I personally find the processes used in the 
criminal proceedings to be unusual and provocative and do have 
questions about whether they meet the requirements of due 
process that is guaranteed in our constitution.
    Looking at you, Mrs. Costner, I am so disappointed. I mean, 
the law, really, required ICE to do something they didn't do. 
They were busy doing things with people who weren't doing 
people harm, and they wouldn't take the time to deal with your 
situation when harm was done, and that is really just so 
maddening to me and, I think, to all of us.
    So we will be adjourning now. Our hearing is open for 5 
days. We may have additional questions in writing for you, and 
if so, we would ask that you respond as promptly as you can.
    And, again, many, many thanks to all of you for being here 
and for helping to shed some light on this situation.
    Before adjourning, I will just note that Mr. Gutierrez will 
be--and several other Members of Congress--will be going to 
Postville--at their own expense, not as a part of--official 
part of this Committee--to investigate matters further this 
weekend, and we look forward to getting their feedback after 
that trip is concluded.
    And with that, this hearing is adjourned.
    [Whereupon, at 4:44 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Hilda L. Solis, a U.S. Senator from 
                        the State of California

    I would like to applaud Chairwoman Lofgren and the members of the 
House Judiciary Subcommittee on Immigration for holding this hearing 
about the detrimental impact of immigration raids. Since 2006, the 
Immigration and Customs Enforcement Agency (ICE) has engaged in 
unprecedented workplace raids. The Bush Administration and its allies 
have chosen an enforcement only immigration strategy. These punitive 
enforcement initiatives ignore the hardworking contributions of 
immigrants and are affecting the well-being of immigrant communities.
    From the Swift raids in 2006 to the raid in Postville, Iowa, ICE's 
actions have left children and other vulnerable populations without 
proper care and supervision and limited legal representation. Nearly 
400 immigrants were arrested at the workplace raid on the 
Agriprocessors plant in Postville, Iowa. This ICE raid was the largest 
workplace raid conducted by the Bush administration on a single site. 
The day following the raid approximately half of the school system's 
600 students were absent, including 90 percent of Latino children, 
because their parents were arrested or in hiding.
    Today, the families in Postville continue to struggle to cope with 
the aftermath of the raid with family members awaiting deportations or 
living under house arrest. A recent New York Times article highlighted 
the detrimental impacts of the Postville raid, the largest in the 
nation, on the lives in the local community. The raid has been 
described as ripping ``the heart out of the community.'' As a nation 
built on family values, these enforcement only tactics are not only 
damaging children, families and communities, but ripping at the fabric 
upon which our nation was built.
    Separating families puts children at risk of economic hardship and 
psychological trauma. We must ensure that as immigration laws are being 
enforced that our nation's children are not at risk. That is why I have 
introduced the Families First Immigration Enforcement Act (H.R. 3908), 
which would ensure that immigrant raids are humane and children are 
protected. This legislation would protect immigrant detainees and their 
families from mistreatment and unnecessary separation from minor 
children, and encourages the release of detainees on humanitarian 
grounds.
    We cannot turn a blind eye to the injustices that workplace raids 
are having on our children and families. As the sponsor of the Families 
First Immigration Enforcement Act (H.R. 3980), I will continue to work 
with my colleagues in Congress and across the country to find a 
solution on how immigration enforcement could be improved to protect 
the children and families involved.

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
